OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID’S HIV/AIDS
ACTIVITIES IN CÔTE D’IVOIRE
AUDIT REPORT NO. 7-681-11-003-P
FEBRUARY 4, 2011




DAKAR, SENEGAL
Office of Inspector General


February 4, 2011


MEMORANDUM

TO:    	       USAID/West Africa Mission Director, Henderson Patrick

FROM: 	        Regional Inspector General, Gerard Custer /s/

SUBJECT:	      Audit of USAID’S HIV/AIDS Activities in Côte d’Ivoire (Report No. 7-681­
               11-003-P)


This memorandum transmits our report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft report, and we have included them in
their entirety in appendix II.

The report includes 19 recommendations for your action. On the basis of management’s
comments, we have combined two recommendations (recommendations 8 and 9 in the
draft report) and deleted two recommendations (recommendations 19 and 21 in the draft
report), and have renumbered the recommendations accordingly in this report. On the
basis of your comments and actions planned, a management decision has been reached
on all 19 recommendations. Please provide the Audit, Performance, and Compliance
Division in the USAID Office of the Chief Financial Officer (M/CFO/APC) with the
necessary documentation to achieve final action.

I appreciate the cooperation and courtesy extended to my staff during the audit.
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings ................................................................................................................. 6 


     Le Soutien Did Not Achieve

     Targets for HIV/AIDS ................................................................................................... 6 


     RIP Plus Did Not Achieve the 

     Servir Project Objectives............................................................................................. 8 


     Antiretroviral Drugs Were 

     Not Available at Health Facilities............................................................................... 10 


     Antiretroviral Drugs Were 

     Missing From Facilities.............................................................................................. 12 


     Expired Drugs Not Destroyed ................................................................................... 14 


     PEPFAR Commodities Were 

     Exposed to High Temperatures ................................................................................ 15 


     The Measure Program 

     Was Not Implemented as Intended........................................................................... 16 


     Monitoring and Evaluation of 

     Activities Were Weak ................................................................................................ 19 


     PEPFAR Activities Not Implemented at 

     all University Research Company 

     Program Sites .......................................................................................................... 22 


Evaluation of Management Comments ....................................................................... 24 


Appendix I—Scope and Methodology......................................................................... 30 


Appendix II—Management Comments........................................................................ 32

SUMMARY OF RESULTS 

The President's Emergency Plan for AIDS Relief (PEPFAR) was signed into law on May
27, 2003, under the United States Leadership Against HIV/AIDS, Tuberculosis, and
Malaria Act.    This Act committed $15 billion over 5 years to combat human
immunodeficiency virus/acquired immune deficiency syndrome (HIV/AIDS) in the
developing world. The Tom Lantos and Henry J. Hyde United States Global Leadership
Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act, signed on July 30,
2008, extended PEPFAR for 5 more years and committed another $48 billion.

Côte d’Ivoire is one of the 15 PEPFAR focus countries1 and has the highest national HIV
prevalence in west Africa, estimated at 3.9 percent among adults. Data from Côte
d’Ivoire’s 2005 National AIDS Indicator Survey describe a generalized epidemic marked
by gender and geographic differences, early sexual debut, intergenerational and multiple
concurrent partnerships, weak knowledge of HIV transmission and prevention, and low
condom use. Despite the seriousness of this epidemic, Côte d’Ivoire’s response to
HIV/AIDS has been hampered by years of political and military crisis leading to limited
access to health care, particularly in the northern part of the country.

In 2001, the Government of Côte d’Ivoire created the Ministry for the Fight Against AIDS
to serve as the executive secretariat of the National AIDS Council, the principal
governmental policymaking and strategic planning body for HIV/AIDS in Côte d’Ivoire.
The creation of this ministry was a key strategy in building effective national-level
coordination, as mandated in the National HIV/AIDS Strategic Plan. The mission of the
ministry is to coordinate a comprehensive and effective multisectoral and decentralized
national response to HIV/AIDS, and the ministry therefore plays a central role in bringing
together stakeholders to define national policy and strategies for the care, treatment, and
prevention of HIV/AIDS.

USAID does not have a bilateral mission in Côte d’Ivoire, but supports a small number of
staff to manage PEPFAR activities. The USAID staff in Côte d’Ivoire consisted of an in-
country USAID coordinator assigned from USAID/West Africa (a USAID regional mission
based in Accra, Ghana) to direct USAID’s portfolio in late 2009, and three advisors (an
HIV/AIDS advisor, a supply chain logistics advisor, and an operations coordinator)
fielded by a USAID institutional contractor. The staff also consisted of a PEPFAR
coordinator (financed by USAID) to coordinate all U.S. Government PEPFAR activities
and liaise with the U.S. Ambassador’s office.

In addition, finance, contracts, and other critical support services were provided by the
USAID/West Africa mission for the agreements it awarded. USAID/Washington’s Global
Health Bureau also financed projects through field support or in a few instances, through
direct programming of central funds by USAID/Washington (e.g., the New Partners’
Initiative Grants). Finally, the Centers for Disease Control and Prevention (CDC)
provided technical support for collecting, managing, analyzing, and disseminating
strategic information, and is a critical partner in the development of the unified national

1
 The 15 focus countries are Botswana, Côte d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia,
Nigeria, Rwanda, South Africa, Tanzania, Uganda, and Zambia in Africa; Guyana and Haiti in the
Caribbean; and Vietnam in Asia.


                                             1

vision for monitoring and evaluation, information technologies and information
management systems, and HIV surveillance in Côte d’Ivoire.

Between 2007 and 2010, USAID was allocated about $189 million in PEPFAR funds. At
the time of the audit, USAID had 21 active projects (4 awarded by USAID/West Africa
and 17 by USAID/Washington Global Health). These USAID programs were
implemented through an array of Washington-managed agreements and task orders for
field activities. Among these were the Supply Chain Management System (SCMS),
which was allocated $119,272,665 to provide logistical support for PEPFAR-related
commodities through a 4-year task order, which started in fiscal year (FY) 2009; the
Measure program implemented by John Snow Inc. (JSI) covering FYs 2003–2010 was
allocated $5,617,602 which provided technical assistance to strengthen the Côte d’Ivoire
national monitoring and evaluation system for the fight against HIV/AIDS; Social Sectors
Development Strategies’ program, which, over the period 2009–2014 was allocated
$2,023,000 to strengthen the managerial and technical capacity of indigenous partners
and develop HIV/AIDS curriculum and trainers; and the University Research Company’s
program to improve the quality of monitoring and evaluation data over FYs 2007–2012,
with total allocation until 2010 (from the Country Operating Plan) of $3,800,000.

Two programs that ended at the time of the audit were also selected as part of this audit:
Le Soutien’s program to educate communities about HIV/AIDS, promote the use of HIV
testing services, and provide care and support to orphans and vulnerable children, which
ran from FYs 2006–2009 with total funding of $992,620, and Réseau Ivoirien des
Organisations de Personnes Vivant avec le VIH (RIP Plus), a 3-year $1,559,772
initiative launched in 2006 to build administrative capacity and provide HIV prevention
training to select nongovernmental organizations, institutionalize a national testing day,
and provide a variety of HIV/AIDS care and support. As of March 2010, USAID has
allocated about $133 million in PEPFAR funds for the six programs selected.

In December 2009, USAID/West Africa staff requested an investigation from the Office
of Inspector General’s Office of Investigations for PEPFAR activities in Côte d’Ivoire.
The OIG determined that an audit was more appropriate given the materiality and nature
of the allegations. Accordingly, this audit was conducted to determine whether
USAID/West Africa’s six selected HIV/AIDS programs in Côte d’Ivoire achieved their
main goals of strengthening HIV/AIDS care and support services, facilitating treatment of
those with HIV/AIDS and related infections, and enhancing HIV/AIDS monitoring and
evaluation.

This audit concluded that USAID/West Africa has not achieved its goals of strengthening
HIV/AIDS care and support services and has only partially achieved its goals of
facilitating treatment of those with HIV/AIDS and related infections and enhancing
HIV/AIDS monitoring and evaluation. Specifically:

   	 Le Soutien’s HIV prevention and testing program failed to meet its goal of
      providing care and support to 1,500 orphans and vulnerable children. In fact, it
      could not provide evidence of assisting any orphans and vulnerable children
      (pages 6–7).

   	 RIP Plus did not meet its goals of testing 100,000 active youths and adults and
      reaching 17,500 people living with HIV/AIDS through support and care. In fact, it



                                            2                      

       could not provide evidence of testing any youths or assisting any people with
       HIV/AIDS (pages 8–10).

   	 SCMS was only partially successful at facilitating treatment. SCMS procured and
      delivered more than 80 percent of the HIV/AIDS drugs and supplies to health
      facilities in Côte d’Ivoire in 2009 and provided technical assistance to the
      Government of Côte d’Ivoire by assisting it in forecasting drug and supply demand
      for HIV/AIDS patients. However, the audit uncovered stockouts of antiretroviral
      (ARV) drugs, discrepancies with drug counts at warehouses, and a significant
      amount of expired ARVs with no clear plans for disposal (pages 10–15).

   	 JSI’s Measure program was only partially successful at enhancing HIV/AIDS
      monitoring and evaluation systems. In 2009, JSI provided technical support to
      the Government of Côte d’Ivoire and other local organizations by providing
      several training seminars in areas such as monitoring and evaluation techniques.
      Although the audit determined that health facilities were using patient registers to
      record patient information as part of an important element of improving health
      care systems, further analysis of the data to make important administrative
      decisions to improve overall patient care and treatment was not performed as
      intended by the program (pages 16–19).

   	 Social Sectors Development Strategies’ program had less than 1 year of
      implementation at the time of the audit; therefore it was too early to determine
      whether the program had met its goals. However, the audit noted that
      performance indicators and targets had not yet been established to measure
      program achievements (page 21).

   	 University Research Company’s program reported improvement in the quality of
      data at the intended target of 41 medical health centers. For example, with the
      assistance of the Government of Côte d’Ivoire, the program provided
      professional services and quality improvement dedicated to helping clients use
      scientific methods and research findings to improve program management and
      outcomes to achieve organizational and behavioral change. Nevertheless, at two
      of the six sites visited during the audit, actions to improve the quality of data had
      not been taken as reported. At these two sites, no activities had taken place as
      reported (pages 22–23).

These conditions arose because USAID officials did not adequately monitor the
implementation of these programs. Furthermore, the multifaceted organizational
structure for administering PEPFAR activities in Côte d’Ivoire and the absence of
documented operating procedures contributed to these shortcomings (pages 19–22).
These findings, along with the allegations of fraud noted in the audit report, have been
reported to the Office of Inspector General’s Office of Investigations.

The report recommends that USAID:

   	 Develop a strategy to address Le Soutien’s lack of performance and misuse of
      government funds (page 7).




                                            3                       

	 Make a final determination for the allowability of $708,080 of Le Soutien’s
   program expenses, which includes the costs of the motorbikes, desks, and a
   scanner that have not been returned, and recover amounts determined to be
   disallowed (page 7).

	 Develop and implement a strategy to address RIP Plus’s misconduct and misuse
   of U.S. Government funds (page 10).

	 Settle and document any outstanding fees related to the financial audit of RIP
   Plus by the external auditors to obtain the audit report (page 10).

	 Review the inputs used to forecast demand to ensure that drugs are available
   when needed (page 12).

	 Request the Government of Côte d’Ivoire, in writing, to communicate all changes in
   drug protocols to ensure that the right prescriptions are given to patients (page 12).

	 Develop a mechanism to track drugs that are out of stock to ensure timely
   replacement (page 12).

	 Request that the Ministry of Health provide USAID with copies of its supervision
   reports on physical inventory and status of U.S. Government drugs at health
   facilities for the duration of the project (pages 13-14).

	 Work with the Ministry of Health to establish a plan and schedule for
   implementing quality control procedures for the distribution and handling of
   cotrimoxazole at service delivery sites to prevent future losses (page 14).

	 Work with the Government of Côte d’Ivoire to develop and implement a plan to
   destroy the expired drugs currently in storage (page 15).

	 Work with the Government of Côte d’Ivoire to develop and implement a policy for
   storage, pickup, and destruction of expired drugs and effectively communicate it
   to all health facilities affected (page 15).

	 Improve the system to identify expiring drugs and use them before expiration
   (page 15).

	 Work with the Government of Côte d’Ivoire to develop and implement a plan to
   address proper storage of HIV/AIDS drugs at all warehouses (page 16).

	 Work with the University of North Carolina to implement the action plans
   developed as a result of the program assessment conducted in fiscal year 2008
   (page 18).

	 In conjunction with John Snow, Inc., work with the Ministry of Health to develop
   and implement a monitoring plan, which includes communication with health
   districts, frequent site visits, and prompt attention to problems to improve data
   use, analysis and decision-making at the local level (page 19).



                                         4                       

   	 Develop and implement a monitoring plan, which includes communication with
      users, frequent site visits, and prompt attention to problems to improve
      implementation of the project (page 21).

   	 Perform a data quality assessment of the results/reported data of the program
      (page 21).

   	 Establish and define roles and responsibilities for PEPFAR staff (page 22).

   	 Verify and document that activities at the 35 sites not visited by the audit team
      are in fact active (page 23).

Detailed findings appear in the following section. Appendix I describes the audit’s scope
and methodology.

On the basis of management’s comments, we have combined two recommendations
and deleted two recommendations in the draft report, and have renumbered the
recommendations accordingly in this report. On the basis of mission comments and
actions planned, a management decision has been reached on all 19 recommendations.
Our evaluation of management’s comments is on page 24. USAID/West Africa’s written
comments on the draft report are included in appendix II.




                                           5                      

AUDIT FINDINGS 

Le Soutien Did Not Achieve
Targets for HIV/AIDS
In 2006, through the New Partners’ Initiative,2 the Côte d’Ivoire nongovernmental
organization (NGO) Le Soutien was awarded a 3-year, $992,620 agreement to provide
care, services, and support for people affected by human immunodeficiency
virus/acquired immune deficiency syndrome (HIV/AIDS) and to promote HIV prevention
and testing in rural areas of the severely war-affected western region of Côte d’Ivoire.
The program targeted groups that have been most underserved by national HIV/AIDS
programs, such as youths, women, and orphans and vulnerable children (OVC). The
key objectives of the program were to:

     Educate communities about HIV/AIDS, mobilize and support them to promote and
      use HIV testing services, and provide care and support to at least 1,000 OVCs and
      their families in 30 villages around Danané.
     Provide care and support to at least 500 OVCs in Yopougon, a suburb of Abidjan.

The audit revealed that Le Soutien had depleted all program funds but could not
demonstrate or provide evidence to support implementation of program activities.
Officials from Le Soutien acknowledged that very little had been done, stating that funds
were used for project startup and some initial work associated with identifying OVCs,
performing HIV/AIDS tests, conducting trainings, and participating in the national AIDS
Day events. However, they were not able to provide records to support these claims,
and could not provide verbal details on how, where, or when the OVCs were identified;
HIV testing was performed; or training was conducted. The audit team concluded that
very limited activity, if any, had been implemented under this program.

Officials from Le Soutien explained that little had been accomplished in accordance with
their agreement with USAID primarily because of inadequate funding and confusion over
program implementation between them and the contracting officer’s technical
representative (COTR) based in Washington, DC. According to Le Soutien officials, the
original plan to reach 1,000 beneficiaries in Danané was increased to include an additional
500 beneficiaries in Yopougon. Le Soutien assumed that additional funding would be
provided for the increased targets, but according to a consultant from the Academy for
Educational Development (AED), a contractor hired to provide technical assistance to Le
Soutien, and the COTR in Washington, DC, no such promises were made, and Le Soutien
was obliged to implement the program with the increased targets using the initial funding
provided. Nevertheless, Le Soutien’s explanation was unacceptable because no results
were evident for program funding of $992,620.




2
   The New Partners Initiative (NPI) is part of a broader effort within the U.S. President's
Emergency Plan for AIDS Relief (PEPFAR) to work with new partners, including community and
faith-based organizations, to enhance their technical and organizational capacity and ensure the
quality and sustainability of HIV/AIDS programs by supporting community ownership.


                                               6                       

Moreover, in 2008 (after 2 years of implementation), allegations of fraud by a Le Soutien
staff member surfaced, and USAID/West Africa engaged external auditors to review Le
Soutien’s activities related to the allegations. The report revealed the following issues:

   	 Le Soutien received reimbursement of $248,250 for salary payments of staff
      covering the period from December 2006 to July 2007, but the review indicated
      that activities started in August 2007, and therefore Le Soutien was not entitled to
      salary payments for the period before August 2007.

   	 The auditors found several cases of overbilling and fraudulent practices with
      travel expenses. Hotel bills charged by Le Soutien to USAID showed daily rates
      more than twice the rate paid by the auditors who stayed at the same hotel.

   	 According to one interview conducted by the auditors, Danané staff’s monthly
      salary was less than the amount billed to USAID. The staff members were
      forced to sign for a higher amount than officially charged to USAID.

As required by the recipient-contracted audit reporting system, the Regional Inspector
General/Dakar (RIG/Dakar) reviewed and issued a financial audit report. The issued
report questioned $284,540 in program expenses. A bill was submitted to Le Soutien on
September 1, 2009, for this amount and remains uncollected because Le Soutien has no
funds. Furthermore, although the program had ended, Le Soutien employees have
refused to return 12 motorbikes (claiming nonpayment of their salaries), and nine office
desks and one scanner belonging to USAID had not been returned. These issues and
others discussed in this report have been referred to the Office of Inspector General’s
investigative unit for further review.

Le Soutien encountered these problems primarily because of a lack of monitoring by
USAID. The COTR, based in Washington, DC, has had limited involvement with the
program and has visited implementing partner staff in Côte d’Ivoire only once during the
3 years of implementation (for a 3-day period). These issues of PEPFAR program
monitoring and oversight are discussed in more detail later in the report.

USAID and PEPFAR officials in Washington decided to end the program 4 months
before it was scheduled to end. Although recovery of funds may be unlikely, USAID
should make every attempt to recover the amount for assets not yet questioned by the
external review ($708,080), or at the very least, the tangible assets (motorbikes, desks,
and scanner) should be returned. USAID has not taken disciplinary actions against the
implementing partner other than terminating the agreement. To address this issue, this
audit makes the following recommendations:

   Recommendation 1. We recommend that USAID develop and implement a
   strategy to address Le Soutien’s lack of performance and misuse of U.S.
   Government funds.

   Recommendation 2. We recommend that USAID make a final determination for
   the allowability of $708,080 of program expenses, which includes the costs of the
   motorbikes, desks, and scanner that have not been returned, and recover
   amounts determined to be disallowed.




                                            7                      

RIP Plus Did Not Achieve the
Servir Project Objectives
Through the New Partners’ Initiative (NPI) program, Réseau Ivoirien des Organisations
de Personnes Vivant avec le VIH (RIP Plus) was to implement the “Servir” Project in
Côte d’Ivoire between 2006 and 2009 with total funding of $1,559,772. The project was
designed to achieve the following objectives:

   	 Build administrative capacity of people living with HIV/AIDS (PLWHA)
      organizations.
    Train members of 25 PLWHA NGOs in positive HIV prevention.
    Implement positive prevention activities.
    Institutionalize a national testing day and test 100,000 active youths and adults.
    Reach 17,500 people living with HIV/AIDS through support and care.
    Provide care and support to newly diagnosed PLWHAs.
    Provide home-based palliative care to those in need.

However, RIP Plus did not accomplish these objectives. RIP Plus was not able to
provide any evidence to support program activities and could not substantiate how the
funds received from USAID were used. Officials at RIP Plus admitted that very few of
the program’s activities, if any, were implemented. RIP Plus was to mitigate the impact
of HIV/AIDS in vulnerable communities by strengthening its administrative and financial
management capacity. However, RIP Plus officials acknowledged that they did not meet
their program goals of assisting 17,500 PLWHA, administering HIV/AIDS tests to
100,000 youths, or providing care and support to the HIV/AIDS community as they had
initially agreed in their work plan. They were not able to provide any documentation to
support any of the activities that they did accomplish. In addition, several other issues
occurred with the program:

Misconduct by the Board of Directors and Executive Team – RIP Plus adopted a
governing structure that was meant to ensure accountability and professionalism.
However, this did not occur. During the audit, RIP Plus officials (both board members
and executive team members) accused one another of fraudulent acts and misuse of
program funds, which could hinder the achievement of project objectives. Examples
cited included the following:

  	 A member of the executive team claimed that the board of directors had requested
     and received payment for two projects but only implemented activities for one.
     Specifically, RIP Plus was the subrecipient of two other PEPFAR partners:
     Cooperative for Assistance and Relief Everywhere (CARE) and Alliance. The
     work that RIP Plus executed for CARE and Alliance was very similar in nature,
     which made it easy to claim expenses for both projects simultaneously.

  	 A member of the executive team claimed that board members submitted receipts
     for reimbursement for expenses incurred during the national HIV/AIDS testing day,
     but had also submitted the same receipts for reimbursement to the World Bank
     (another sponsor).

  	 According to a member of the executive team, some members of the board formed
     NGOs with the intention of winning subawards with RIP Plus. Upon discovering


                                           8                      

       this, USAID’s Office of HIV/AIDS appropriately demanded that these members of
       the board of directors resign from RIP Plus if they were awarded the subawards.
       The board of directors decided to remain with RIP Plus, and their respective NGOs
       were not awarded any of the subawards.

    	 A member of the board of directors and a consultant for the project claimed that an
       executive team member had misused project vehicles, despite a written policy
       from the board president forbidding personnel use of project vehicles.

An External Financial Audit Revealed Irregularities – In light of the allegations of
fraud between the board of directors and the executive team, USAID requested a
financial audit3 for FYs 2007, 2008, and 2009. However, according to the auditors, RIP
Plus’s management was less than cooperative, which impeded the completion of the
audit work.

The auditors noted an unusual conflict between the board of directors and the executive
officers, which precluded the auditors from obtaining sufficient documentation to
complete the audit. After several attempts to obtain documentation, management
provided only limited documentation for FY 2007 and nothing for FYs 2008 or 2009.
Moreover, the information provided for FY 2007 was unreliable. Consequently, the
auditors could not express an opinion on the audit report. For 2007 activities, the
auditors discovered many financial irregularities, including the following:

      	 More than $1,000 of per diem claimed could not be substantiated.

      	 Expenses of more than $14,000 related to passport renewals and vehicle
         maintenance were not supported.

      	 Claimed expenses of $12,520 by officials did not have supporting documentation.

      	 Program vehicles were used inappropriately.

      	 Procurements were inappropriately executed.

The auditors have withheld their report until full payment for the audit is received.

Recommendations Made by the Independent Consultant Were Disregarded – The
PEPFAR program employed an independent consultant from AED to provide technical
assistance to both NPI partners: RIP Plus and Le Soutien.

The consultant observed many problems at RIP Plus and made recommendations to
address them, but no actions were taken by either RIP Plus officials or USAID. The
consultant’s report noted, among other things, (1) slow progress and a lack of evident
project implementation, (2) a lack of segregation of duties among the board of directors
and the executive team and misconduct among the members, and (3) suspected fraud
by top management of RIP Plus. The suspected fraud has been referred to the Office of
Inspector General’s investigative unit for further review.

3
  The RIP Plus external financial audit was performed by Deloitte and Touche in Abidjan, Côte
d’Ivoire, in 2009.


                                              9                       

Both the consultant from AED and the former USAID PEPFAR coordinator attributed the
main cause of RIP Plus not meeting its goals and encountering the problems described
above to a lack of monitoring and oversight by USAID. The same COTR was managing
both programs from Washington, DC, and has had only limited involvement with the
program. As a result, funds have not been used properly to assist beneficiaries as
intended, and about $1.6 million of U.S. Government funds were expended with minimal
achievements. USAID should make every attempt to take disciplinary actions against
the implementing partner other than terminating the agreement. This audit makes the
following recommendations:

    Recommendation 3. We recommend that USAID develop and implement a
    strategy to address Réseau Ivoirien des Organisations de Personnes Vivant avec
    le VIH (RIP Plus’s) misconduct and misuse of U.S. Government funds.

    Recommendation 4. We recommend that USAID settle and document any
    outstanding fees related to the financial audit of Réseau Ivoirien des
    Organisations de Personnes Vivant avec le VIH (RIP Plus) by the external
    auditors to obtain the audit report.

Antiretroviral Drugs Were
Not Available at Health Facilities
According to Côte d’Ivoire’s 2009 Country Operating Plan, Supply Chain Management
System (SCMS)4 procured most drugs, lab supplies, and other commodities for
PEPFAR’s implementing partners. SCMS was responsible for ensuring that regular,
detailed, and accurate commodities data and analyses were available to inform all
stakeholders and empower the Government of Côte d’Ivoire to make appropriate
decisions. SCMS was also to establish a system to track ARVs and other HIV/AIDS
commodities through the Pharmacie de Santé Publique (PSP), the national drug
warehouse, to treatment sites, as well as to strengthen district-level commodities
management systems and practices by implementing various tools, including software,
to ensure continued availability of commodities at service delivery points.

SCMS procured and delivered more than 80 percent of the HIV/AIDS drugs and supplies
to health facilities in Côte d’Ivoire in 2009 and provided technical assistance to the
Government of Côte d’Ivoire by assisting it in forecasting drug and supply demand for
HIV/AIDS patients. However, the audit team noted that critical ARVs were not available
at the three health facilities visited. In all four districts visited, medical personnel
complained of frequent stockouts of ARVs.

Table 1 illustrates the medicines that were not available (at least for the past 6 months)
at three of the four districts visited.




4
  Since May 2005, SCMS has been designated as the primary procurement agent for PEPFAR-
funded commodities in Côte d’Ivoire and the principal provider of technical assistance for the
HIV/AIDS commodities supply chain, especially for forecasting and management.


                                             10                       

                              Table 1. Medication Stockouts

        District           Facility Visited        Date Visited         Medication Stockouts
 Région du           PMI, Abiosso                   4/20/2010     -   Stavodine/Lamivudine
 Sud-Comoé                                                            Tenofovir
 Région du           District Sanitaire de          4/21/2010     -   Stavodine/Lamivudine
 Moyen-Comoé         Abengourou                                   -   Tenofovir and Emtricitabine
                                                                  -   Lamivudine 150mg
 Région des Lacs 	   Health District of             4/22/2010     -   Stavodine/Lamivudine
                     Yamoussoukro                                 -   Tenofovir
                                                                  -   Dedanosine
                                                                  -   Lamivudine 150mg

In 2009, RIG/Dakar issued Audit of USAID/West Africa’s Procurement and Distribution of
Commodities in Côte d’Ivoire for the President’s Emergency Plan for AIDS Relief (Report
No. 7-624-09-002-P), which also identified problems of drug shortages. In response to
an audit recommendation made to improve the inventory control system, USAID/Africa
implemented the Logistic Management Information System (LMIS). This system was not
fully operational at the time of this audit but has already revealed some problems. This
and other reasons for the stockout of ARV drugs are discussed below.

Inaccurate Inputs Used to Forecast – The inputs used by SCMS to procure drugs
were not accurate and did not reflect the actual demand in Côte d’Ivoire. In 2008, SCMS
implemented the LMIS, designed to forecast drug consumption more accurately. For
this system to work effectively, all the components of the formula used to estimate
demand must be as precise and accurate as possible. However, there were several
problems with the inputs used. According to SCMS officials, the consumption rate
reported was usually incorrect, and was underestimated by as much as 50 percent
because the health clinics did not have adequate controls over the inventory of their
drugs and did not keep accurate records of amounts received or sold. Consequently,
forecasts were inaccurate, contributing to frequent stockouts of critical medicines.

National Protocol to End Distribution of Stavudine – According to SCMS and PSP
officials, there has been a change in the national drug protocol for ARV drug
prescriptions for Stavudine (a drug used in combination with other medicines to treat HIV
infection). SCMS officials stated that the Government of Côte d’Ivoire, in adherence to
World Health Organization recommendations, has advised medical facilities to stop
prescribing this drug to patients. However, at all four facilities visited, pharmacists and
local doctors were not aware of any such changes in the national drug policies and
stated that they would continue to prescribe the drug.

Delayed Distribution of Drugs – Drugs have not been delivered to the health facilities
timely. Ideally, drugs should be delivered by PSP to sites on a weekly basis, but owing
to a lack of transportation resources the drugs were delivered monthly. Even in Abidjan,
PSP delivers to the district offices on a weekly basis, but drugs were delivered to local
pharmacies on a monthly basis.

The district offices also complained that they do not have transportation to distribute the
drugs to pharmacies in their districts. For example, at the District Sanitaire de
Abengourou, the pharmacist in charge of drug distribution stated that it was a challenge
every month to deliver the drugs to various facilities because the vehicle supplied by



                                              11                          

PSP has not been operational for some time. Pharmacies in this district therefore must
provide their own transportation to the district office each month to pick up their drugs.

Because of the unavailability of antiretroviral drugs, patients have no choice but to wait
or to rely on substitutes that may result in a less effective treatment. According to a
pharmacist in Yamoussoukro, taking prescribed medication regularly is a matter of life
and death for these patients, and not having the medications when needed advances
their HIV/AIDS condition and can make them immune or resistant to the drugs and the
therapies when they are finally available. To correct these problems, this audit makes
the following recommendations:

      Recommendation 5. We recommend that USAID, in conjunction with Supply
      Chain Management System, review the inputs used to forecast demand to
      ensure that drugs are available when needed.

      Recommendation 6. We recommend that USAID, in conjunction with Supply
      Chain Management System, request the Government of Côte d’Ivoire, in writing,
      to communicate all changes in drug protocols to dispensing facilities in a timely
      manner to ensure that the right prescriptions are given to patients.

      Recommendation 7. We recommend that USAID, in conjunction with Supply
      Chain Management System, upgrade or develop a mechanism in the Logistic
      Management Information System to track drugs that are out of stock or will be
      out of stock to ensure timely replacement/reorders.

Antiretroviral Drugs
Were Missing From Facilities
The Government Accountability Office’s (GAO’s) Standards for Internal Control in the
Federal Government5 state that an agency must establish physical control to secure and
safeguard vulnerable assets. The standards also state that transactions should be
recorded promptly to maintain their relevance and value to management in controlling
operations and making decisions.

During site visits to four districts, the audit team noted discrepancies in drug inventory
counts for some important ARV drugs without any valid explanations, as noted in table 2.




5
    GAO/AIMD-00-21.3.1 (11/99).


                                             12                     

                            Table 2. Drug Inventory Discrepancies
           Location                   Drug                Quantity    Quantity      Difference
                                                          Per Stock   Verified
                                                            Card
       Clinique de          3TC AZT 150/300 mg              32,160     32,130            (30)
       Confiance            Cotrimoxazole                   33,560     29,195          (4,365)
       PMI, Abiosso         Lamivudine/Stavudine/            120        180               60
                            Nevirapine
                            (150/300 mg)
                            Cotrimoxazole 960 mg             95         125               30
       District Sanitaire   Cotrimoxazole 960 mg           97,280      57,100         (40,180)
       de Abengourou        Zidovidine 100 mg              1,710        900             (810)
       Health District of   Zidovidine 300 mg              1,200       7,300           6,100
       Yamoussoukro         Zidovidine/Lamivudine/         46,980      47,040             60
                            Nevirapine

Doctors, pharmacists, and administrators could not explain the differences. As noted in
table 2, the drug with the largest discrepancy at three of the four sites was
cotrimoxazole. According to medical experts, this is a very popular drug in Côte d’Ivoire
used to treat other diseases and infections such as cystitis, intestinal, and other bacterial
infections. Although some differences were small, others were significant.

This situation has occurred because of a lack of adequate controls, monitoring, and
oversight of ARV drug distribution by SCMS. Furthermore, SCMS has not ensured that
consumption levels reported by medical facilities were reasonable. During site visits, the
audit team noted that facilities were able to place orders for large quantities of drugs
even when they had a sufficient supply. For example, at the District Sanitaire de
Abengourou, where 40,180 pills of cotrimoxazole were missing, the pharmacist admitted
that although he had sufficient inventory to supply patients, he continued to place the
orders because no one had questioned it before. Of the newly ordered stock that had
been received from PSP, an entire case was missing, and the audit team was not able to
verify an additional quantity of 10,000 pills.

Moreover, doctors were able to trade ARV drugs among themselves without much
accountability. There was a lack of monitoring and supervision from PSP and SCMS to
ensure that the ARV drug trades were conducted in good faith. For example, at the
Clinique de Confiance in Abidjan, 4,365 pills of cotrimoxazole were missing; when asked
about the whereabouts of the pills, the doctor acknowledged that he often traded drugs
with other facilities but did not maintain any records or report this to SCMS or PSP
because it was not required. According to a doctor working with PSP, there were
suspicions surrounding nationwide stockouts of cotrimoxazole in Côte d’Ivoire; PSP
requested assistance from SCMS, but no response was received from SCMS officials.

As a result of these weaknesses in controls, significant amounts of medication are
missing, unaccounted for, and were not available to intended beneficiaries. Therefore,
this audit makes the following recommendations.

   Recommendation 8. We recommend that USAID advise, in writing, the
   Government of Côte d’Ivoire’s Ministry of Health of the need for greater
   accountability for the maintenance and disposition of U.S. Government procured
   drugs and request that the Ministry of Health provide USAID with copies of its




                                                     13                         

     supervision reports on physical inventory and status of U.S. Government drugs at
     health facilities for the duration of the project.

     Recommendation 9. We recommend that USAID, in conjunction with Supply
     Chain Management System, work with the Ministry of Health to establish a plan
     and schedule for implementing quality control procedures for the distribution and
     handling of cotrimoxazole at service delivery sites to prevent future losses.

Expired Drugs
Not Destroyed
According to the World Health Organization’s guidance on expired drugs (Guidelines for
Safe Disposal of Unwanted Pharmaceuticals in and after Emergencies, 1999), most
pharmaceuticals past their expiry date become less effective, and a few may develop a
different adverse drug reaction profile. Improper disposal may be hazardous if it leads to
contamination of water supplies used by communities or wildlife. Expired drugs may
also come into the hands of scavengers or children if a landfill is insecure. Pilfering from
a stockpile of waste drugs or during sorting may result in expired drugs being diverted to
the market for resale and misuse.

SCMS employed a national program in Côte d’Ivoire to collect all expired ARVs across
the country in FY 2009, and about 12.7 tons6 of expired ARVs were collected. However,
SCMS does not have plans to dispose of these drugs. Initially, the plan was to destroy
the drugs after collection, but the estimated cost to destroy the drugs was more than
anticipated (estimated at $81,000), and the destruction did not occur due to a lack of
funding. In the interim, the drugs have been stored at a warehouse7 in Abidjan (since
December 2009) where SCMS signed a 1-year lease agreement paying approximately
$12,800 monthly. As of September 2010, USAID has paid approximately $106,000 in
storage costs. When asked about future plans for the expired drugs, SCMS officials did
not know when the drugs would be destroyed. Furthermore, medical facilities across
Côte d’Ivoire continue to accumulate more expired drugs.

During the audit team’s visit to the four health facilities, there was confusion regarding
the disposal policy, which requires medical facilities to separate expired drugs from
nonexpired drugs and to periodically send them to their respective district pharmacies,
where they are picked up by PSP for destruction. Medical facilities and district offices
were not following the policy, as noted below:

    	 At the Protection Maternelle et Infantile (PMI) in Abiosso, expired bottles of ARVs
       were stored with unexpired ones because the pharmacist was unaware of the
       policy for expired drugs.

    	 At the Sanitaire de Abengourou, expired and unexpired ARVs were stored in the
       same room, and several boxes of other expired essential drugs were stored in the
       lobby area of the facility. The pharmacist said that he has tried to return them to
       PSP several times for disposal, but PSP has refused to accept them.

6
  The 12.7 tons of expired ARVs collected by SCMS for destruction included ARVs that had been 

donated by PEPFAR and other donors.

7
  PSP sometimes uses this warehouse to store ARVs. 



                                             14                       

Without a firm plan and policy to manage and dispose of expired drugs, more drugs will
continue to accumulate at medical facilities throughout the country. Although the rate of
expired drugs was not fully addressed during the audit, it was a problem that was noted
in a previous Office of Inspector General audit report and should be addressed when
updating and upgrading the LMIS. Furthermore, without an effective plan, clinics and
medical facilities may attempt to dispose of drugs or destroy them on their own, which
could lead to other risks and hazards to the environment. Also, pilfered drugs from
these stockpiles may be diverted to the market for resale and misuse, or may come into
the hands of scavengers and children.           In addition, the mission has incurred
unnecessary storage costs. Therefore, this audit makes the following recommendations:

   Recommendation 10. We recommend that USAID work with the Government of
   Côte d’Ivoire to develop and implement a plan to destroy the expired drugs
   currently in storage.

   Recommendation 11. We recommend that USAID work with the Government of
   Côte d’Ivoire to develop and implement a policy for storage, pickup, and
   destruction of expired drugs and effectively communicate it to all health facilities
   affected.

   Recommendation 12. We recommend that USAID improve the Logistics
   Management Information System to identify expiring drugs and implement a plan
   to use drugs before they expire to prevent waste.

PEPFAR Commodities Were
Exposed to High Temperatures
According to HIV/AIDS experts (doctors and consultants working under PEPFAR),
manufacturers of PEPFAR commodities require that antiretroviral medicines be stored at
temperatures not to exceed 77°F (or 25°C). However, during site visits to four public
health pharmacy warehouses in Abidjan, the audit team noted that the warehouses
exceeded these limits. No air-conditioners were installed in any of the three main PSP
warehouses to ensure that drugs were stored at the required temperature. The average
high temperature in Côte d’Ivoire for the week of the site visits was 91°F (or 33°C), well
above the recommended temperature limits. Also, temperatures maintained at ARV
storage facilities visited were not acceptable and were well above the recommended
limits. Although two of the four medical facilities had air-conditioned storage rooms,
pharmacists at these locations noted that the air-conditioners were used only during
business hours to conserve electricity.

SCMS and the Government of Côte d’Ivoire had not ensured that necessary
accommodations were made to address storage temperature conditions. Although two
of four medical facilities visited were air-conditioned, there were no generators or other
contingency plans to maintain proper temperatures during power outages. Therefore,
drugs maintained at the regional medical stores were periodically subject to
temperatures exceeding the recommended limits.

An SCMS official informed the audit team that in 2008, PEPFAR provided $801,393 in
assistance to the Government of Côte d’Ivoire for completing the construction of a PSP



                                           15                      

warehouse, the purchase of equipment for the warehouse, and the provision of relevant
technical assistance for the new warehouse facility in Abidjan. The audit team visited
this new warehouse three times during the audit and noted that no air-conditioners were
installed. According to SCMS, plans have been developed to install air-conditioners, but
SCMS officials were unsure when this would be completed.




   The newly constructed PSP warehouse in Abidjan, Côte d’Ivoire, where all

   antiretroviral drugs are stored prior to distribution to districts. (Photograph taken by

   OIG auditor in April 2010) 


Storing drugs at temperatures not recommended by the manufacturer could lead to less
effective treatment for HIV/AIDS patients and may be harmful to the health of patients.
Therefore, this audit makes the following recommendation:

   Recommendation 13. We recommend that USAID work with the Government of
   Côte d’Ivoire to develop and implement a plan to address proper storage of
   HIV/AIDS drugs at all warehouses.

The Measure Program Was
Not Implemented as Intended
USAID entered into an agreement with the University of North Carolina–Chapel Hill to
implement PEPFAR activities under the Measure Project for FYs 2003–2010 for total
funding of $4,541,994. The project objective was to provide technical assistance for
strengthening the national monitoring and evaluation system for the multisector fight
against HIV/AIDS. The project was aimed at working closely with the Government of
Côte d’Ivoire to strengthen technical capacities of local institutions, and was
implemented by John Snow Inc. (JSI) and other partners through a subaward from the
University of North Carolina.

According to JSI officials, a key component of the program was to implement data
collection and analysis tools in medical facilities across Côte d’Ivoire. In 2009, JSI provided
technical support to the Government of Côte d’Ivoire and local organizations by providing
several training seminars in areas such as monitoring and evaluation techniques. The
program also distributed registration booklets to local medical facilities to be used to record


                                                16                          

all HIV/AIDS patient data during medical visits. The health facilities would then compile
these data monthly and use them to improve patient care and management. This
information is also forwarded to the district and other Government agencies for analysis
and use in overall district and national patient care and management.

However, the tools provided for the program have not been used as intended. The audit
team noted that health facilities were using registers to record patient information, but
further analysis of the data to make important administrative decisions to improve overall
patient care and treatment was not performed:

   	   At the district office in Abengourou, the supervising doctor stated that he had
        attended an all-expenses-paid training seminar in Senegal on how to implement
        Measure’s programs in his district. However, when asked several times to
        provide specifics on how the data had been used by his district, he could not
        provide any details. He was not able to identify any analysis that had been
        performed or any administrative decisions that had been made as a result of
        using Measure’s tools.

        The audit team then visited one hospital in that same district, Dispensaire Urbain
        de Dioulakio, where the chief medical doctor (also a member of the medical board
        for Abengourou) was responsible for developing recommendations to improve
        patient care and treatment processes based on the analysis performed by hospital
        staff. The chief medical doctor stated that patient registers were used at his
        hospital to record patient information, but no further analysis of patient data was
        performed by hospital staff, administrators, or district officials. The chief medical
        doctor was surprised and taken aback that the supervising doctor at the district
        office claimed that any analyses was being performed in his district. He made
        clear that none of Measure’s program tools (e.g., data gathering, patient care
        analyses) were utilized because the hospital has been understaffed (only four
        nurses were employed at the hospital) and could not devote time to conducting
        analyses that were much too time-consuming. Although the data could be used to
        perform different analysis without a computer, it is much more cumbersome and
        time-consuming, and the doctor noted that his hospital did not have a computer to
        perform these analyses. Furthermore, he added that no one from the University of
        North Carolina, JSI, or the Government of Côte d’Ivoire had visited the hospital to
        evaluate the progress of the program or to answer staff questions or concerns
        regarding the tools since the program began at his hospital.

   	 At the district of Abbiosso, district officials and administrators from the Hospital
      General Ayame could not provide specific details on how the information had
      been used to improve overall patient care and treatment. According to a district
      monitoring and evaluation staff member, he entered data into the system but did
      not analyze the data. At a hospital (Bonoua) in that same district, the hospital
      administrator was confused about the entire program. He did not know about the
      Measure program or the registration booklets or its purpose.

   	 At the district offices of Marcory, the acting district director was not able to
      provide specifics on how the data had been used by his district to improve patient
      care and treatment. The audit team also visited the general hospital in this
      district, where monthly data collection exercises were performed and the results
      were sent to the Ministry of Health as required by the program. However, the


                                             17                      

       HIV/AIDS doctor at the hospital added that monthly data were collected only
       because he personally entered all the data. He believed that other officials at the
       hospital were not as motivated to do this data collection, so he has taken on this
       task alone. Unfortunately, because he spends at least half a day per month
       entering data, he spends less time with patients. Despite his efforts, he
       acknowledged that there have not been any improvements or decisions that can
       be attributed to these monthly exercises at the hospital. Furthermore, the quality
       of the data needed improvement, as the audit team, in conjunction with the
       monitoring and evaluations specialist who is an employee of the hospital,
       discovered several uncorrected errors during a review of records from 2009.

Furthermore, action plans developed to address program weaknesses were never
implemented. In 2008 (4 years after implementation), the project commissioned an
evaluation to assess the national health information system. According to JSI officials,
the evaluation noted the following:

     Program data were used at only 38 percent of health facilities and 44 percent of
      districts.
    Medical personnel using the data were poorly trained and did not have the
      necessary analytical skills to use the data accurately.
    Personnel who should be using the data were not doing so owing to lack of
      motivation and understanding of how data should be used.
   	 The quality of data being generated and used by facilities was inadequate
      because there were issues with the accuracy and completeness. The review
      found the average accuracy of data at the facility level to be at 40 percent.

In response to the results of this evaluation, the University of North Carolina and JSI
officials developed action plans to address the problems. These action plans included
(1) offering courses in data use and analysis at the national institute for midwives and
nurses, as well as integrating these courses into the training of medical students, and
(2) working with the National Statistic Institute to implement a training program on data
analysis and use for medical personnel in the field. However, there was no evidence
that any of these action plans had been implemented.

The program has not been implemented as intended primarily because of a lack of
monitoring, followup, program assessment, and support from the University of North
Carolina, JSI, and the Government of Côte d’Ivoire. At the four hospitals visited, officials
noted that no one from the University of North Carolina, JSI, or the Government of Côte
d’Ivoire had visited the hospital since the program started in 2004 to assess its progress
or to provide them with guidance or feedback. Furthermore, there was a lack of
oversight by the AOTR for this project, who was based in Washington, DC, and has
never visited the program in Côte d’Ivoire. Because of the lack of monitoring over the
program’s implementation, U.S. Government funding was not effectively utilized and
medical facilities did not benefit from the program as intended. Therefore, this audit
makes the following recommendations:

   Recommendation 14. We recommend that USAID work with the University of
   North Carolina to implement the action plans developed as a result of the
   program assessment conducted in fiscal year 2008.




                                            18                      

   Recommendation 15. We recommend that USAID, in conjunction with John
   Snow, Inc., work with the Ministry of Health to develop and implement a
   monitoring plan, which includes communication with health districts, frequent site
   visits, and prompt attention to problems to improve data use, analysis and
   decision-making at the local level.

Monitoring and Evaluation of
Activities Were Weak
USAID has developed extensive guidelines on the management of awards. Most
notably, USAID’s Automated Directives System (ADS) 303, Grants and Cooperative
Agreements to Nongovernmental Organizations, Section 303.2(f), states that technical
representatives should review and analyze reports, monitor reporting requirements, and
ensure the recipient’s compliance with numerous terms and conditions of an award.
However, the audit determined that the PEPFAR team in Côte d’Ivoire and Washington,
DC, did not adequately supervise, monitor, or evaluate activities. Many of the problems
discussed in this report could have been avoided with adequate monitoring and
oversight. Specifically, the PEPFAR team did not provide adequate oversight, conduct
data quality assessments, or finalize some program indicators and targets.

Lack of Oversight – Several issues that have been noted in the audit report—the lack
of implementation of activities and potential acts of fraud—might have been avoided had
USAID properly monitored its programs. Both the consultant from AED who was hired to
provide technical assistance to Le Soutien and RIP Plus and the former USAID PEPFAR
senior program manager (a U.S. contractor) agreed that the root cause of the problems
identified in this report was the lack of oversight by USAID. The former senior program
manager added that the COTRs were stretched too thin and overburdened with too
many projects to manage. Moreover, they were working remotely from Washington, DC,
and Accra, which hindered their oversight capabilities.

The current USAID PEPFAR director also noted that staffing had been a major concern
for the program. There had not been a USAID U.S. direct hire in country until October
2009, and since his arrival, three of the six contractors have left. He stated that USAID
plans to increase staffing in the next few years.

According to the ADS, each COTR should provide adequate oversight over their
programs, including regular communication, site visits, and verification of activities and
results. It was clearly impossible for the COTR for RIP Plus and Le Soutien to devote
time and effort to each of the programs. According to the AED consultant, the COTR
was part of a team of three that managed 27 NPI projects. Without constant
involvement, communication, support, and verification of results, problems are more
likely to surface. Moreover, some of these implementing partners required even more
oversight since they were working with USAID for the first time.

Although ADS 303.3.17.b states that “site visits are an important part of effective award
management, since they usually allow a more effective review of the project,” USAID
staff did not conduct adequate site visits of programs selected under this audit.

  	 For the University Research Corporation’s (URC) project, which was implemented
     in 41 sites across Côte d’Ivoire, neither USAID nor the implementing partner had



                                           19                      

      conducted site visits since the start of the program in 2007. According to URC
      officials, their interaction with USAID/West Africa program personnel was either by
      phone or at the headquarters of URC, but never at their sites of implementation.
      In fact, the COTR, who was based in Washington, DC, stated that he had never
      visited the URC program in Côte d’Ivoire.

  	 For Le Soutien, the COTR visited Côte d’Ivoire only one time for 3 days during the
     3-year implementation period for discussions at Le Soutien’s headquarters. No
     visits to program implementation sites were conducted during those 3 years.
     Moreover, the program assessments that should have been completed during the
     initial stages of program implementation did not occur until 14 months after the
     project started.

  	 RIP Plus officials informed the audit team that USAID officials did not perform any
     site visits of their program during the 3-year implementation period. Moreover,
     according to an AED consultant, the program assessments that should have been
     completed during the initial stages of program implementation did not happen until
     14 months after the project began. This COTR was managing Le Soutien as well
     as other programs.

  	 For the University of North Carolina–Chapel Hill, all four medical hospitals visited
     for the audit indicated that no one from the university or JSI (the subpartner) had
     visited their facilities or contacted them regarding the progress of implementation.

An active monitoring plan with regular site visits for monitoring project progress and
verifying data might have identified the implementation and reporting problems identified
in this report.

Lack of Clearly Defined Roles and Responsibilities Between CDC and USAID –
To better manage programs, managers should ensure that roles are clearly defined,
thereby eliminating any confusion over responsibilities. The PEPFAR program in Côte
d’Ivoire was being implemented primarily by USAID and the Centers for Disease Control
and Prevention (CDC). There were approximately 100 employees for the PEPFAR
program in Côte d’Ivoire; 11 were USAID employees and the remainder were CDC and
institutional contract employees. However, 36 percent of PEFAR-funded activities were
for USAID and the remaining 64 percent for CDC. This made it challenging for USAID to
provide the level of oversight needed to effectively manage its programs in Côte d’Ivoire.
Furthermore, according to a USAID official, many USAID staff reported directly to CDC
management, which some USAID/West Africa officials regard as a possible cause for
problems noted in this report.

According to the former USAID PEPFAR senior program manager, there were no clearly
defined roles and responsibilities between CDC and USAID. This had a negative impact
on PEPFAR activities in Côte d’Ivoire. Many USAID employees in Côte d’Ivoire believed
that CDC was overly involved in many aspects of the program, such as requesting
changes in the scope and deliverables of certain activities (even by nontechnical
personnel), which sometimes caused delays and confusion for the implementing partner
and the PEPFAR team. Without clearly defined roles and responsibilities for each
organization, efforts may be overlapping, confusing, or unorganized, or may put USAID
funds at risk.



                                           20                      

Data Quality Assessments Were Not Conducted – ADS 203.3.5.2 states that the
purpose of data quality assessments is to ensure that the USAID mission/office and
assistance objective teams are aware of the strengths and weaknesses of the data as
determined by applying applicable quality standards and of the extent to which data
integrity can be trusted to influence management decisions. ADS further states that
reported data must have had a data quality assessment at some time within the 3 years
before submission.

USAID/West Africa had not performed a data quality assessment of its activities in Côte
d’Ivoire in the past 5 years. The audit noted that data quality needed improvement.
ARV inventory data in all four districts and local pharmacies visited were inaccurate. As
another example, a hospital reporting data for the University of North Carolina–Chapel
Hill’s Measure program reported inaccurate patient data. USAID/West Africa did not
perform a data quality assessment of its program primarily because of staffing
constraints. The program was therefore relying on inaccurate data, which could impede
its determination of whether or not program goals are achieved. Without adequate data
validity and reliability testing, the mission did not have reasonable assurance that data
used for performance-based decision making and reporting were valid and reliable.

Performance Indicators and Targets Were Not Finalized for AIDSTAR II Activities –
ADS 203.3.2.1 states that the assistance objectives team must plan how it will monitor
and evaluate progress toward results, including the selection of performance indicators.
Furthermore, the Office of the Global AIDS Coordinator, which oversees PEPFAR, adds
that regardless of levels of funding, all programs should be results-oriented with clearly
established targets.

Social Sectors Development Strategies (SSDS), through its AIDSTAR II program, was
the implementing partner of a project that aimed to provide technical assistance to six
small local NGOs in capacity building.8 Since the start of the project in May 2009, SSDS
had not established any relevant indicators and targets to track its program activities.

SSDS officials were not familiar with USAID guidance and believed that establishing
indicators and targets was not required during the first year of implementation.
USAID/West Africa did not ensure that indicators and targets were established and
approved (within 60 days of the signed award) as required by the agreement between
USAID and SSDS. Without established indicators and targets, it would not be possible
to evaluate and assess program achievement.

To address the issues above, this audit makes the following recommendations:

    Recommendation 16. We recommend that USAID develop and implement a
    monitoring plan for PEPFAR activities in Côte d’Ivoire that includes adequate
    resources to provide regular communication with users, frequent site visits, and
    prompt attention to problems to improve program implementation.

    Recommendation 17. We recommend that USAID perform a data quality
    assessment of the results/reported data of the program.

8
  There were seven small NGOs when the program started. In late 2009, one of the NGOs—
UNESCO University Club for the Fight against Drugs—was discontinued because of a conflict of
interest.


                                            21                      

    Recommendation 18. We recommend that USAID, in coordination with the
    Centers for Disease Control and Prevention, establish and define roles and
    responsibilities for its PEPFAR staff.

PEPFAR Activities Not
Implemented at All University
Research Company Program Sites
USAID awarded the University Research Company (URC) a 5-year agreement from FYs
2007 to 2012 and has allocated $3.8 million9 to coordinate with other system-
strengthening activities such as health financing, health governance, information
management, and pharmaceutical management, in countries including Côte d’Ivoire. Its
objective was to provide an enhanced approach on quality improvement on HIV/AIDS
health care services while working with the Government of Côte d’Ivoire and
nongovernmental medical health centers in 41 selected sites in the first year of the
project.

Implementation of its program was to occur through four subpartners selected by
USAID/West Africa and involved carrying out a detailed assessment of antiretroviral
treatment (ART) services across the continuum of care at all national ART sites. These
services include evaluating palliative care, pediatric ART, and HIV/tuberculosis care.

URC reported that implementation had taken place through its subpartners at all 41
sites. URC, in working with the Government of Côte d’Ivoire, provided professional
services and quality improvement dedicated to helping clients use scientific methods and
research findings to improve program management and outcomes to achieve
organizational and behavioral change. However, no implementation had taken place at
two of the six health facilities selected for testing during the audit (Centre de Pris en
Sage des Research et Formation and l’Hôpital Général in Abobo). Officials of the
subpartner responsible for implementation at these two sites admitted that
implementation simply did not occur because hospital administrators there were not
interested in URC’s program.            Even though URC has received funding for
implementation at 41 sites, there was a 33 percent discrepancy in the small sample (two
of six sites selected). It is questionable that activities at the remaining 35 unverified sites
have been implemented as intended.

Furthermore, according to URC, participation of the two hospitals identified was crucial
because they were major delivery sites of HIV/AIDS services in Abidjan and important to
the overall goals of the project. These sites are dedicated hospitals for HIV/AIDS
patients’ referral and are among the country’s biggest health care providers. They are
located in the populated areas in Abidjan considered strategic for the fight against
HIV/AIDS. However, URC realized that the subpartners were not actively convincing the
hospitals to participate in the program.

Activities that are important to the program were not carried out as planned, thereby
affecting overall project goals. This audit makes the following recommendation:

9
  This amount only includes funding through 2010. Funding is allocated each year, and amounts
for FYs 2011 and 2012 were not available at the time of the audit.


                                              22                       

Recommendation 19. We recommend that USAID verify and document that
activities at the 35 sites not visited by the audit team are in fact active and that
hospital participation is apparent.




                                        23                      

EVALUATION OF
MANAGEMENT COMMENTS
USAID/West Africa and USAID/Washington’s Bureau for Management, Office of
Acquisition and Assistance, Global Health Bureau, Office of HIV/AIDS (M/OAA/GH/OHA)
agreed with most of the recommendations in the draft report. In preparing the final
report, the Regional Inspector General/Dakar (RIG/Dakar) considered management’s
comments and revised the report accordingly. On the basis of management’s
comments, we have combined two recommendations and deleted two recommendations
from the draft audit report and have renumbered the recommendations in the report. For
the comments with which we did not agree, we have clarified our position below. The
evaluation of management comments is summarized below.

USAID/West Africa has asked that we identify the appropriate action office in our
recommendations. However, because our report is addressed to the USAID/West Africa
Mission Director (based in Accra/Ghana), our recommendations must be addressed only
to that office.      Since there are several offices involved, we will make our
recommendations to USAID and ask that USAID/West Africa work with the other offices,
as it has done, to close the recommendations.

General Comment A: We have revised our description of the staff makeup of the
USAID PEPFAR program in Côte d’Ivoire, on the basis of management’s comments.
We would also add that although the PEPFAR program in Côte d’Ivoire is implemented
by both Centers for Disease Control and Prevention (CDC) and USAID with shared
responsibilities, the audit focused only on USAID activities because USAID’s Office of
Inspector General (OIG) has purview over USAID activities not CDC’s.

General Comment B: The program is extensive and complicated, and the audit
focused on six programs. We have revised our wording of “key programs” to “selected
programs” as suggested by management’s comments.

General Comment C: USAID/Washington argues that despite the management
problems experienced by Le Soutien and Réseau Ivoirien des Organisations de
Personnes Vivant avec le VIH (RIP Plus), a number of HIV/AIDS activities did take place
(and were documented in quarterly reports). We agree that quarterly reports were
submitted, but we could not verify the activities reported. Furthermore, representatives
of the partner admitted to the auditors that very little had been done or accomplished
under the program.

General Comment D: USAID/Washington reported that four site visits were conducted
instead of two reported by RIG/Dakar. However, we obtained evidence for only two site
visits. If support for the other two site visits does exist, it was not provided to the
auditors. The auditors attempted several times during the course of the audit to contact
the agreement officer’s technical representative (AOTR) in Washington to clarify some
audit issues, but the AOTR was not available and never returned the auditors’ calls.


                                          24                     

USAID/Washington suggested that the report acknowledge factors that strained its
ability to manage activities. These limitations were conveyed in the report. For
example, the report notes that “the COTRs were stretched too thin and overburdened
with too many projects to manage…. the COTR was part of a team of three that
managed 27 NPI projects.” The report also states that “the current USAID PEPFAR
director also noted that staffing had been a major concern for the program.”

Recommendation 1.         USAID/Washington and M/OAA/GH/OHA agree with the
recommendation and plan to work with the Office of HIV/AIDS in the Global Health
Bureau to determine whether it is appropriate to issue a followup to its bill of collection.
The agreement officer has also begun discussions with M/OAA/E to determine whether
a referral for suspension or debarment of the partner or any of its key employees is
appropriate. The target date for these actions is March 31, 2011. Accordingly, a
management decision has been reached.

We would also like to clarify some points made under this recommendation by
USAID/Washington and M/OAA/GH/OHA.

   	 OHA disputes that “very limited activity, if any was implemented under this
      program.” OHA states that it has ample evidence, including quarterly reports by
      Le Soutien, weekly reports, etc., to support that activities were undertaken and
      that targets were achieved in year 2 of the project. However, we would like to
      point out that although quarterly reports were submitted by the partner, the
      information in the reports could not be verified or substantiated during the audit.
      Moreover, as we noted in the audit report, Le Soutien’s top officials admitted to
      us that very limited activity, if any, was implemented under the program. They
      admitted that there was no documentation to support activities in the field.
      Furthermore, we made several attempts to discuss these issues with the AOTR
      in Washington, but were not successful—the AOTR was unavailable throughout
      the audit.

   	 OHA disputes that one of the key objectives of the program was to “provide care
      and support to at least 500 OVCs in Yopougon.” However, this objective was
      clearly stated in the “Narrative of Workplan FY 2008 (1 Oct 2007–30 Sept 2008)
      Partnership NGO Le Soutien/PEPFAR/NPI/USAID Nunsseu project (the child is
      the future),” provided to us by the PEPFAR team in Côte d’Ivoire.

   	 OHA claims it has evidence to support training of Le Soutien staff, thereby
      claiming that some results were obtained by Le Soutien. Although training of Le
      Soutien staff is important, it is only an intermediary step to assisting beneficiaries
      and has no direct link to the overall goals of the program. Furthermore, as we
      have noted previously, no documentation was provided to the auditors during the
      audit to support any activities implemented.

   	 OHA claims that the AOTR met Le Soutien in Côte d’Ivoire twice, met NPI
      representatives twice, and participated in weekly monitoring calls. We agree that
      the AOTR met with Le Soutien twice, but as stated in the audit report, these visits
      were short and were made only to the partner’s offices, not to any planned




                                            25                      

       activity sites. We did not receive any information or documentation supporting
       the two visits by NPI representatives or weekly monitoring calls.

Recommendation 2. USAID/Washington agrees with the recommendation and plans to
audit the costs not previously reviewed to determine unallowable costs and plans to
complete this task by March 31, 2011. Accordingly, a management decision has been
reached for this recommendation.

Recommendation 3. USAID/Washington agrees with the recommendation and will
work to finalize the determination of whether any costs under the RIP Plus agreement
should be disallowed and a bill of collections issued for any such costs. The agreement
officer has also begun discussions with M/OAA/E to determine whether referral for
suspension and debarment of RIP Plus or any of its board members is appropriate and
plans to complete these tasks by June 30, 2011. Accordingly, a management decision
has been reached for this recommendation.

We would also like to clarify some points made under this recommendation by
USAID/Washington and M/OAA/GH/OHA.

   	 OHA claims to have evidence to support achievement of targets and has
      provided us with a summary. OHA also claims to have evidence to support
      granting of 30 subawards. As we stated earlier, none of the items reported could
      be verified or substantiated during the course of the audit.

   	 OHA disputes that RIP Plus had a goal of testing 100,000 people. However,
      according to the New Partners’ Initiative Annual Report 2008, Program
      Description, RIP Plus was “expected to reach directly 17,500 PLWHAs and test
      100,000 active youths and adults through the Côte d’Ivoire Testing Day.”

   	 OHA claims that training took place over the life of the project for the staff of RIP
      Plus. As previously stated, we were not provided with any documentation to
      support these activities during the course of our audit.

Recommendation 4. USAID/Washington agrees with this recommendation and
according to OHA, Deloitte has been paid and copies of the audit report have been
distributed to both USAID/Côte d’Ivoire and RIG/Dakar. However, RIG/Dakar has not
received this report, and furthermore, as of July 2010, the audit manager at Deloitte
stated that only partial payment has been received and the final report will not be
released until full payment is received. Additionally RIG/Dakar received an email from
the USAID in-country coordinator in Côte d’Ivoire on September 15, 2010, stating that he
had received a call from the audit manager of Deloitte and Touche demanding final
payment for the audit work performed. OHA has an established target date of March 31,
2011, for final closure. Accordingly, a management decision has been reached for this
recommendation.

Recommendation 5. USAID/Washington agrees with this recommendation and is
reviewing the methodology and input data for projecting demand. The target date for
this action is June 30, 2011. Accordingly, a management decision has been reached for
this recommendation.




                                           26                       

Recommendation 6. USAID/Washington agrees with the recommendation and plans
to make a written request to the Government of Côte d’Ivoire’s Ministry of Health. The
target date for completion is June 30, 2011. Accordingly, a management decision has
been reached for this recommendation.

Recommendation 7. USAID/Washington agrees with the recommendation and has
recently incorporated a tracking tool to predict and avoid stockouts of ARVs. The target
date for completion is September 30, 2011. Accordingly, a management decision has
been reached.

Recommendations 8 and 9 (new recommendation 8). We have combined and
revised    these    recommendations      as   requested       by     USAID/Washington.
USAID/Washington will inform the Ministry of Health in writing of its concerns about the
maintenance and accountability of the drugs and supplies provided by the U.S.
Government. USAID will officially request regular spot checks and reports regarding
physical inventory and status of U.S. Government procurements at facility sites. The
target date for completion is June 30, 2011. Accordingly, a management decision has
been reached for this recommendation.

Recommendation 10 (new recommendation 9). We revised this recommendation as
requested by USAID/Washington. According to USAID/Washington, a team conducted
site visits at 17 health facilities in July 2010 and confirmed RIG/Dakar’s finding regarding
the quantities of cotrimoxazole missing from certain sites and further noted staff
weaknesses in record keeping and drug ordering practices, and partial understanding of
stock management principles and LMIS tools. On the basis of these findings, the team
made several recommendations to improve quality control over cotrimoxazole. The
mission will work with the Ministry of Health to implement these recommendations by the
target date of June 30, 2011. Accordingly, a management decision has been reached
for this recommendation.

Recommendation 11 (new recommendation 10). According to USAID/Washington, in
November 2009, USAID, SCMS, and the Ministry of Health developed a plan to destroy
the expired drugs. The Government of Côte d’Ivoire is working to raise funds for this
purpose and USAID expects that the destruction of the drugs will take place by March
2011. Accordingly, a management decision has been reached for this recommendation.

Recommendation 12 (new recommendation 11). USAID will recommend to SCMS to
work with the Ministry of Health to revise and validate a national policy on waste
products, including expired drugs. The target date for completion is September 30,
2011. Accordingly, a management decision has been reached on this recommendation.

Recommendation 13 (new recommendation 12). USAID/Washington agrees with the
recommendation. SCMS developed and is currently piloting an electronic dispensing
tool at 10 service sites. USAID expects that the new tool will be rolled out to 240 sites
by March 2011. Accordingly, a management decision has been reached for this
recommendation.

Recommendation 14 (new recommendation 13). According to USAID/Washington,
SCMS is procuring climate control equipment, including air-conditioners and roofing
materials. Also, in the PEPFAR Country Operating Plan 2011, USAID has proposed that
SCMS work with the Ministry of Health to develop national standards for site, district,


                                            27                      

and regional warehouses. The target date for completion is March 31, 2011.
Accordingly, a management decision has been reached for this recommendation.

Recommendation 15 (new recommendation 14). USAID/Washington agrees with the
recommendation but disputes some language in the report.                   For example,
USAID/Washington argues that the 2008 recommendations for the 2008 PRISM project
were acted upon and addressed. However, the chief of party for Measure admitted to us
that no actions had been taken to implement these recommendations. She further
stated that she did not have any documentation to support any activities implemented.

Measure is planning to send a team to Côte d’Ivoire to discuss the audit findings and
make any necessary changes to its work plan and strategies. The target date for
completion is September 30, 2011. Accordingly, a management decision has been
reached for this recommendation.

Recommendation 16 (new recommendation 15).                       We have revised the
recommendation based on USAID/Washington’s comments. Also, USAID will work with
JSI to work with the Ministry of Health to develop and implement a monitoring plan that
includes communication with health districts, frequent site visits, and prompt attention to
problems by the target date of September 30, 2011. Accordingly, a management
decision has been reached for this recommendation.

Recommendation 17 (new recommendation 16).                   USAID agrees with the
recommendation. As of November 2010, five additional hires are in various stages, with
an additional nine positions to be filled. The target date for completion is March 31,
2011. Accordingly, a management decision has been reached for this recommendation.

Recommendation 18 (new recommendation 17).                   USAID agrees with this
recommendation but argued that data quality assessments were conducted. However,
in an email from the monitoring and evaluation advisor for the PEPFAR program in Côte
d’Ivoire dated June 18, 2010, we were informed that although implementing partners
were encouraged to perform data quality assessments of their programs, data quality
assessments conducted of the PEPFAR program in Côte d’Ivoire did not meet ADS
guidelines. USAID plans to conduct data quality assessments for selected PEPFAR
activities in 2011. The target date for completion is September 30, 2011. Accordingly, a
management decision has been reached for this recommendation.

Recommendation 19. On the basis of management’s comments, we have deleted this
recommendation from the audit report.

Recommendation 20 (new recommendation 18).                  USAID agrees with this
recommendation. A memorandum of understanding has been drafted to affirm and
clarify the parameters of the USAID-CDC joint management of PEPFAR. The
memorandum will be revised and cleared by both parties in early 2011. Also, a scope of
work for training needs of the managers and technical advisors is under way. The target
date for completion is March 30, 2011. Accordingly, a management decision has been
reached for this recommendation.

Recommendation 21. On the basis of management comments, we have deleted this
recommendation from the audit report. However, we would like to clarify the following
points:


                                            28                      

USAID pointed out that the report misconstrued the nature and scope of the Health Care
Improvement Project by stating that University Research Corporation (URC) was to
“improve the quality of monitoring and evaluation data.” This description, however, was
from the program’s monitoring plan under objective one. USAID also pointed out that it
was incorrect to say that URC’s work “involved carrying out a detailed assessment of
ART services across the continuum of care at all national ART sites.” This description,
however, was verbatim in the 2008 Country Operating Plan narrative. Furthermore, the
description of the program and its activities was confirmed by URC’s chief of party during
meetings with him in Côte d’Ivoire prior to the start of field work.

USAID stated that the audit report failed to mention that the URC Country Director had
advised USAID and the audit team of the situation at the sites (the two poor performers)
prior to the start of the audit. This was not accurate; the audit team was not informed of
the lack of performance at the two hospitals selected for testing by the URC country
director. Although we had several discussions with his team before our site visits
started, this was discovered during site visits to these health facilities. Additionally,
Alliance Nationale Contre le SIDA en Côte d’Ivoire (ACONDA) officials stated that the
main cause of lack of participation of these hospitals is lack of program leadership as the
management staffs at these facilities did not recognize the importance of the program.
ACONDA officials also agreed that they and URC have not taken any action such as
contacting the Government of Côte d’Ivoire to ensure that these facilities participate in
the program. Nevertheless, we have deleted this recommendation as USAID has
already assessed the causes of poor performance at the two hospitals.

Recommendation 22 (new recommendation 19).                      USAID agrees with this
recommendation and is confident that satisfactory implementation is occurring at the
other 35 sites not visited. URC/HCO will continue to work with the Ministry of Health and
implementing partners to strengthen the quality of services and monitoring and
evaluation of all sites. The target date for this action is March 31, 2011. Accordingly, a
management decision has been reached for this recommendation.




                                            29                      

                                                                              Appendix I



SCOPE AND METHODOLOGY

Scope

The Regional Inspector General/Dakar conducted this audit in accordance with generally
accepted Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on the audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective, which was to determine if USAID/West Africa’s six selected
human immunodeficiency virus/acquired immune deficiency syndrome (HIV/AIDS)
programs in Côte d’Ivoire achieved their main goals of strengthening HIV/AIDS care and
support services, facilitating treatment of those with HIV/AIDS and related infections, and
enhancing HIV/AIDS monitoring and evaluation.

Between 2007 and 2010, USAID was allocated about $189 million in PEPFAR funds. At
the time of the audit, USAID had 21 active projects. Among these were programs by
Réseau Ivoirien des Organisations de Personnes Vivant avec le VIH (RIP Plus), Le
Soutien, Supply Chain Management System (SCMS), John Snow International (JSI),
Social Sectors Development Strategies, and the University Research Company.

The audit focused on HIV/AIDS activities for FY 2009 and evaluated the achievements
of USAID/West Africa’s activities and its implementing partners. As of March 2010,
USAID has allocated about $133 million in PEPFAR funds for the six programs selected.

Fieldwork for this audit was performed from March 29 to April 30, 2010, in Abidjan and
other cities in Côte d’Ivoire. We interviewed officials and visited PEPFAR offices,
implementing partner offices, health facilities, and warehouses. As part of the audit, we
assessed the significant internal controls used by USAID/West Africa to monitor program
activities. The assessment included controls related to whether USAID had (1) reviewed
progress and financial reports submitted by the implementing partners, (2) conducted
and documented periodic meetings with the implementing partners, (3) performed
documented visits to the activity sites, and (4) developed and implemented policies and
procedures to safeguard the assets and resources of the activities. We also reviewed
the mission’s Federal Managers’ Financial Integrity Act report for FY 2008 and prior
audit reports for any issues related to the audit objective.

Methodology
To answer the audit objective, we reviewed activities implemented by selected
implementing partners as well as the PEPFAR indicators reported by USAID/West Africa
in FY 2009. We met with the PEPFAR team in Côte d’Ivoire to gain an understanding of
the program activities and also reviewed available agreements, progress reports, and
implementing partner work plans. We reviewed applicable laws and regulations and
USAID policies and procedures pertaining to USAID/West Africa’s PEPFAR program,
including Automated Directives System guidance; the PEPFAR Act of May 2003 and
subsequent reauthorization in July 2008; and the PEPFAR 5-year strategic plan. During
site visits, we interviewed implementing partner staff, service providers, beneficiaries,



                                            30                      

                                                                           Appendix I


and officials from the Government of Côte d’Ivoire’s health and education ministries. We
also verified reported results, performed inventory counts on antiretroviral drug
commodities, and ensured that activities were being monitored and evaluated as
required.

We conducted site visits to 16 facilities, which included warehouses and health centers
in four regions in Côte d’Ivoire: (1) Région des Lagunes; (2) Région du Sud-Comoé; (3)
Région du Moyen-Comoé, and (4) Région des Lacs. The sample of the 16 sites
represented were located in the regions where PEPFAR programs were being
implemented and were nonrestricted areas within Côte d’Ivoire, and included both large
and small medical facilities. Since this testing was based on a judgmental―not
statistical―sample of programs and sites, the results and overall conclusions related to
this analysis were limited to the items tested and could not be projected to the entire
audit universe. However, we believe that our work provides a reasonable basis for our
conclusions.




                                          31                     

                                                                          Appendix II




MANAGEMENT COMMENTS




Memorandum

To:           Gerard Custer, Regional Inspector General/Dakar

From:         Henderson Patrick, Mission Director, USAID/West Africa

Thru:         Karen Fall, Regional Controller, USAID/West Africa

Date:         November 29, 2010

Subject:      Mission Comments on the Draft Regional Inspector General’s Audit
              Report No. 7-681-11-00X-P, USAID/West Africa’s HIV/AIDS (PEPFAR)
              Activities in Côte d’Ivoire.

This memo transmits USAID/West Africa’s response and comments to the Draft Audit
Report of the HIV/AIDS Activities in Côte d’Ivoire. Of the 22 Recommendations included in
the Draft Report, we generally concurred with all the recommendations with the exception
of Recommendations 10, 16, 19, and 21. We also suggest that Recommendations 8 and 9
be combined and reformulated and closure for Recommendation 4.

USAID/West Africa (WA) extends its appreciation to the Regional Inspector General
(RIG)/Dakar for promptly responding to USAID’s call for an unscheduled audit of its
HIV/AIDS activities in Côte d’Ivoire (per USAID/WA’s request Annex 1). The request
was made because of revelations of possible financial mismanagement by two
USAID/Washington grantees, Le Soutien and RIP+’s Project, which had been audited
(by local auditing firms) as part of USAID/WA’s efforts to strengthen program
management and monitoring systems in Côte d’Ivoire (CI). RIG’s presence in Abidjan
for several weeks, in response to this request, sent a clear message to USAID and other
USG PEPFAR CI implementing partners (IPs) that mismanagement of USG funds would
not go unsanctioned. As you are aware, USAID/WA Abidjan-based staff had initially
asked the Pretoria-based Inspector General’s Office to investigate the allegations
concerning Le Soutien and RIP+, but this request was turned down. We believe the
deterrent effect of the RIG audit has been helpful in demonstrating to all USG
implementing partners that they will be held accountable for the management of USG
funds. Moreover, we appreciate the specific observations and recommendations in the
report that go towards strengthening USAID’s management of its activities.

The RIG findings have underscored the urgent need for USAID to clarify the roles and


                                          32 

                                                                              Appendix II


responsibilities of the different USAID units and decision points involved in the CI
PEPFAR program (i.e., USAID/ Washington: Global Health Bureau, Acquisitions and
Assistance, Africa Bureau; the USAID West Africa Regional Office; USAID Abidjan-
based staff). It is currently a misnomer to speak of a “USAID program in CI.” There is
really only one major USG assistance program in CI and that is PEPFAR (the U.S.
President’s Emergency Plan for AIDS Relief) which has a single integrated bi-agency
management structure between USAID and the Centers for Disease Control and
Prevention (CDC). We present some of the strengths, weaknesses and challenges we
have experienced with this joint arrangement in our response to recommendations.

USAID uses a variety of instruments to implement HIV/AIDS activities in CI including
direct awards from USAID/WA Accra (four at the time of the audit) and
USAID/Washington field support mechanisms (then 17). The latter awards make up
most of the USAID portfolio in CI. Of the approximately $189 million in PEPFAR funding
allocated to USAID partners over the past four years (2007-2010), about 20% was
obligated by USAID/WA (in millions: FY07 $6.75; FY08 $7.87; FY09 $11.55; FY10
$11.25); the remaining 80% was obligated by USAID/Washington and falls under the
management control of USAID/Washington AOTRs and COTRs.

Of the six projects selected by the auditors to review, only one falls under the purview of
USAID/WA, i.e., the AIDSTAR II Indefinite Quantity Contract (IQC) with Social Sectors
Development Strategies (SSDS). The other five activities are USAID/Washington Global
Health Bureau projects of which two are IQCs, i.e., Supply Chain Management Services
(SCMS) and Health Care Improvement (HCI) and three are Cooperative Agreements
(CAs), i.e., MEASURE Evaluation, Le Soutien, RIP+ SERVIR. The audit report did not
identify the types of awards or discuss their specific management requirements which
are clearly relevant in considering how these activities have been managed to date.
IQCs enable USAID to rapidly secure services from a preapproved list of contractors.
Cooperative Agreements allow the government limited participation in the recipient’s
assistance program. This participation is limited and may not necessarily include all
components of approval of implementation plans and key personnel, participation or
collaboration in advisory committees on technical or programmatic issues, concurrence
on substantive provisions of any sub awards, approval of monitoring and evaluation
plans, and agency monitoring to permit specified directions or redirection because of
interrelationships with other projects. The cooperative agreements for both RIP+ and Le
Soutien did not include this capability, substantially limiting USAID’s participation in their
programs.

Moreover, the audit report addressed all the recommendations to USAID/WA when all
except about five would more appropriately have been addressed to the responsible
USAID/Washington AO/CO and AOTRs/COTRs. Nonetheless, USAID/WA Accra and
Abidjan-based staff consulted with the appropriate AOTRs and COTRs for the
preparation of the responses to the individual audit recommendations.

Given the preceding, we request that you modify the title of the report to reflect the true
scope of the audit by saying “USAID’s HIV/AIDS Activities in Côte d’Ivoire” rather than
“USAID/West Africa’s HIV/AIDS program in Côte d’Ivoire.” We also request that the
RIG/Dakar clarify the responsible USAID management units (USAID Washington Global
Health Bureau, USAID West Africa) for each audited activity to facilitate the coordination
and closure of the audit recommendations.



                                             33 

                                                                          Appendix II


USAID/WA and its on-site staff strongly recommend joint USAID-CDC audits of this
program for any future audits. The highly integrated bi-agency management structure of
the program makes it impossible to tease out and attribute agency specific outputs and
impact among the approximately 50 awards sponsored by the two agencies. Moreover,
continual unilateral audits by USAID of its PEPFAR partners do not produce the
intended potential impact on the integrated program but instead generate tensions
between implementing partners. A coordinated audit that treats all implementing
partners equally sends a strong message of a single USG team applying the same
principles for improved program impact.

USAID staff in Accra and Abidjan will collaborate with Washington-based USAID staff
who have the primary responsibility to manage the Washington awards and to
implement the recommendations in this audit report. We further believe that the audit
report should acknowledge that it was the Abidjan-based USAID team that initiated this
audit, with concurrence from the previous US Ambassador to CI, after the Abidjan
team’s request to the IG to investigate specific allegations about the program was turned
down.

Finally, please find below our responses to the specific recommendations in the audit
report, preceded by a few general comments and clarifications about the CI program.

USAID/WA General Observations and Clarifications:

General Comment A. Page 1, Para 4 is an incorrect depiction of the USAID PEPFAR
CI program. A more accurate depiction follows:

USAID does not have a Mission in CI but supports a small number of staff to manage
PEPFAR-funded HIV/AIDS activities. At the time of the audit, USAID staff in Abidjan
consisted of one US direct hire Country Program Coordinator assigned from the
USAID/WA Mission to direct USAID’s portfolio in late 2009 and three advisors (an
HIV/AIDS Advisor, a Supply Chain Logistics Advisor, and an Operations Coordinator)
fielded by a USAID institutional contractor (IAP Worldwide Services). Another position,
titled the PEPFAR Coordinator is financed by USAID at the request of S/OGAC to
coordinate all USG PEPFAR activities and liaise with the US Ambassador’s Office.

Finance, contracts, and other critical support services are provided by the USAID/WA
Mission for those USAID activities for which USAID/WA has direct contracting and
financial responsibility. At the time of the audit, USAID/WA managed four awards (plus
local management and operations charges) while the remaining 17 USAID awards came
under the purview of USAID/Washington’s Global Health (GH) Bureau. The GH projects
were financed through field support “buy-ins” or, in a few instances, through direct
programming of central funds by USAID/Washington (e.g., the New Partner Initiative
grants).

In addition to USAID’s portfolio, the PEPFAR CI program includes about 30 CDC and
other USG agencies’ projects. CDC and USAID receive about 99% of the PEPFAR CI
funding. USAID’s activities generally focus on health systems strengthening while CDC
takes the lead in HIV/AIDS prevention, care and treatment services and interventions.
Both agencies share responsibility for capacity building of local NGOs although CDC
prime partners manage about four times as many subpartners as do USAID’s primes.



                                          34 

                                                                            Appendix II


It should be noted that the PEPFAR CI program is unique in that activities, regardless of
whether USAID or CDC is the grantor or sponsoring Agency, are considered part of one
coherent program that is implemented jointly by the two Agencies. CDC has a workforce
of about 120, with a preponderance of technical advisors who, given the small number of
USAID staff, have by default provided oversight and guidance for both CDC and USAID
activities. This was not an ideal situation from USAID’s point of view since CDC staffs’
technical competence does not mean they are conversant with USAID rules, regulations,
or project management requirements. Nonetheless, given the circumstances, it can be
argued that oversight of USAID activities by another USG agency was preferable to no
oversight at all.

General Comment B: Page 1, Para 5 is an incorrect depiction of the USAID PEPFAR
CI program. It is inaccurate to describe (as is done throughout the report) the audited
projects as “USAID’s six key HIV/AIDS programs” or “the six key HIV/AIDS programs of
USAID.” The six projects were selected for the audit for specific reasons that the
auditors should have cited (in some cases, they were selected at USAID Abidjan staffs’
suggestion not because they were “key” projects but rather because they were
problematic). This is not to downplay the importance of any USAID activity -- they are all
important and part of a coherent joint-Agency vision-- but other USAID CI projects are
far larger and more “key” than, for example, RIP+ or Le Soutien, which were two of
USAID’s smallest projects in Côte d’Ivoire. Therefore, to characterize Le Soutien and
RIP+ as two of “the six key programs” misrepresents USAID’s CI program and the scope
of the audit.

A more accurate depiction of USAID’s CI portfolio follows:

Between 2007 and 2010, USAID was allocated about $189 million in PEPFAR funds. At
the time of the audit, USAID had 21 active projects (four awarded by USAID/WA and 17
by USAID/Washington GH).

      USAID/WA Awards                      USAID/W Field Support & Type* of Award
1. Next Generation Social &        1. Supply Chain Management System (SCMS) (IQC)
Behavior Change - Johns            2. Abstinence & Behavior Change - Olive Leaf Found.
Hopkins University Center for        (CA)
Communication Programs             3. Health Systems 20/20 - Abt Associates (CA)
(JHU/CCP) (CA)                     4. RESPOND - Engender Health (CA)
                                   5. FANTA 2 - Academy for Educational Development
2. Care & Support for Orphans        (CA)
and Vulnerable Children - Save     6. Infant & Young Child Nutrition - PATH (CA)
the Children UK (CA)               7. MEASURE Phase III DHS - MACRO International (C)
                                   8. Health Care Improvement - University Research Co.
3. World Food Program (G)            (IQC)
                                   9. Leadership, Management & Sustainability - MSH (CA)
4. AIDSTAR Sector II/ERCACI -      10. MEASURE Evaluation - Carolina Pop. Ctr., UNC
Social Sectors Development           (CA)
Strategies (SSDS) (TO under        11. Associazione Volontari per il Servizio (AVSI) - follow-
IQC)                                 on to be awarded by USAID/WA by Nov. 2010 (CA)
                                   12. New Partners Initiative - Geneva Global- follow-on to
                                     be awarded by USAID/WA by Dec. 2010 (CA)
                                   13. Global Health Technical Assistance Project
                                     (GH Tech) - QED Group LLC (TO)


                                           35 

                                                                             Appendix II


                                       14. Global Health Support Initiative (GHSI) -
_____________                            IAP Worldwide Services (C)
* IQC = Indefinite Quantity Contract   15. Central Contraceptive Procurement (C)
 CA = Cooperative Agreement            16. Health Policy Initiative - Futures Constella Group
C = Contract
TO = Task Order                          (IQC)
G = Grant                              17. AIDSTAR-One (Legal Cell Study) - Centrally funded
                                         (TO under IQC)

Based on funding levels and importance to the overall PEPFAR CI program, the “key”
USAID activity is SCMS, representing about 63% of USAID funding between 2007 and
2010, and responsible for procuring about 80% of all HIV/AIDS drugs for the entire
Government of Côte d’Ivoire (GOCI) HIV/AIDS program. Other “key” activities, with
substantially more funding and nation-wide reach than several of the activities audited
by RIG, include Johns Hopkins University CCP’s Next Generation Social & Behavior
Change Program and Abt Associates’ PSP One and HS20/20 systems strengthening
projects (with budgets that are about eight times Le Soutien’s). Partners such as Save
the Children UK, AVSI and SSDS AIDSTAR II/ERCACI also have far larger budgets than
RIP + or Le Soutien and play a major service-delivery or local capacity-building role.

The RIG auditors chose to scrutinize three active USAID/Washington projects (SCMS,
MEASURE Evaluation, URC’s Health Care Improvement), two USAID/Washington “high
risk” New Partners Initiative grantees, including one terminated in 2009 for poor
performance (Le Soutien), one which had ended before the audit (RIP+ Project
SERVIR), and only one active USAID/WA project (SSDS’ AIDSTAR II/ERCACI) which
was still in start-up mode at the time of the audit. The audit conclusions, therefore,
should not be construed as representative of the entire USAID/CI portfolio but rather a
reflection of findings limited to six (four active, two inactive) out of 21 activities.

General Comment C. The draft audit report contains a number of factual inaccuracies
and incomplete or misleading characterizations that weaken its credibility and usefulness
as an advocacy and management tool. We provide detailed clarifications in our
response to the individual recommendations.

In regard to USAID’s New Partners Initiative (NPI) activities, we would like to point out
that the purpose of NPI was to provide intensive and extensive capacity building support
to indigenous organizations that had little or no USG prior experience and that aspired to
address HIV/AIDS needs at the community level. From the outset, because of their
inexperience these partners were considered to be relatively high-risk partners. USAID/
Washington supported technical assistance initially through MSCI and later through the
Academy for Educational Development (AED) to work with all the NPI CI partners to
address identified management weaknesses. When it became evident that some
problems were insurmountable despite intensive and concerted efforts by AED, the in-
country USAID team, and USAID/Washington to address shortcomings, the decision
was made by USAID/Washington to terminate one of the NPI projects early and allow
the second to end at its award date. It is disappointing that two NPI partners performed
poorly. In contrast, a third NPI grantee, Geneva Global, met and in several instances
exceeded its targets, but this project was not covered by the auditors.

The two problematic NPI projects were audited in 2009 by USAID-approved local audit
firms and the outstanding issues were well-known at the time of the RIG audit. We were
hoping that the RIG would provide guidance in addressing some of those issues instead


                                              36 

                                                                            Appendix II


of simply reiterating what had already been documented in the earlier audit reports.
Furthermore, it is not true to assert that Le Soutien and RIP+ did not carry out any
activities or did not produce any results.         Despite the management problems
experienced by these two organizations, a number of HIV/AIDS activities did take place
(and were documented in quarterly reports as requested by the USG team in Côte
d’Ivoire which were shared with the auditors). At the time of the RIG audit, both of these
projects had already ended (one through termination and one at its end date), the staff
had been let go, and some staff were still owed money by the projects. It is unfortunate
but not surprising that the staff who had worked on these projects did not want to
cooperate with the RIG.

General Comment D. On Page 18, the report says the audit determined that “the
PEPFAR team in Côte d’Ivoire and Washington” did not adequately supervise, monitor,
or evaluate activities. We generally agree with this finding. But the paragraphs that follow
cite the failure of the AOTRs to monitor, implying that no monitoring was done. This is
not accurate. In the instance of NPI, the USAID/Washington team conducted four TDYs
in just over a two -year period, reviewed and responded to quarterly reports per the
cooperative agreement terms, and conducted weekly updates and calls on NPI partners
along with regular communications with the USG team in Côte d’Ivoire. The PEPFAR CI
team -- USAID and CDC colleagues --and the USAID/WA team monitored progress and
financial reports, conducted site visits, and met with the partners. This monitoring was
not adequate, but the report should not state that no effort at monitoring was made by
“the PEPFAR team.” The audit report, at a minimum, should have acknowledged the
converging factors that severely strained USAID’s ability to manage its activities, and not
simply fault the AOTRs/COTRs and activity managers. These factors include the severe
shortage of qualified USAID staff, the sheer magnitude of PEPFAR CI, the crisis-driven
urgent demands of the emergency program, the nature of the USAID - CDC joint vision
and joint management of PEPFAR CI, and the multitude of PEPFAR CI prime and sub-
partners.

Responses to the Specific Audit Recommendations:

Recommendation No. 1 – We recommend that USAID/West Africa develop a strategy
to address Le Soutien’s lack of performance and misuse of U.S. Government funds.

Management Response: Le Soutien is a partner under the New Partners’ Initiative
(NPI) program, a program which is run by USAID/Washington. Because the Agreement
Officer (AO) and the Agreement Officer’s Technical Representative (AOTR) for the Le
Soutien Cooperative Agreement are both based in Washington, the action for this
recommendation is more appropriately addressed by USAID/Washington. USAID/West
Africa has referred this recommendation to USAID/Washington and M/OAA/GH/OHA
and their comment are included below.

As described in the report, after receiving the Regional Inspector General/Dakar audit
report in August 2009, the Agreement Officer issued a bill of collection to Le Soutien on
August 26, 2009 for the amount of $284,540. M/OAA/GH/OHA will work with the Office
of HIV/AIDS in the Global Health Bureau (OHA) to determine whether it is appropriate to
issue a follow-up to its bill of collection, and will refer the bill of collection to the
Department of the Treasury. The AO has begun discussions with M/OAA/E to determine
whether a referral for suspension or debarment of the partner or of any of its key
employees is appropriate.


                                            37 

                                                                             Appendix II



Additionally, we would like to make a few clarifying statements relating to conclusions in
the draft audit report.

First, the draft report states that “very limited activity, if any, [was] implemented under
this program.” OHA disputes this conclusion. USAID has ample evidence, including in
the form of quarterly reports provided by Le Soutien, in weekly reports provided by AED,
the TA provider, and in information discussed in weekly calls between AED and the
AOTR and NPI team over the life of the Agreement, that activities were undertaken
under the Agreement and targets had been met. Specifically, OHA has evidence that
many of the original life-of-project targets were achieved by Le Soutien by the end of
FY2008, or year 2 of the project. Although the same level of results for these ongoing
targets was not being met in FY2009, activities were demonstrably being achieved under
the Agreement. OHA provided a summary of this information to Regional Inspector
General/Dakar on April 14, 2010.

Second, the draft report states that one of the key objectives of the programs was to
“[p]rovide care and support to at least 500 OVCs in Yopougon, a suburb of Abidjan.”
This is incorrect; preliminary discussions were held by the USG team in Côte d’Ivoire
about expanding the program to include this, but the Cooperative Agreement was
ultimately never modified to include this as a program objective. In addition, Le Soutien
never had a target for testing people (nor was it ever envisioned that they would have
the capacity to do so). A small part of its care and support project was to promote HIV
testing, but it is not accurate to say that it failed to meet a testing target. Equally worth
clarifying, Le Soutien’s care and support was for people affected by HIV/AIDS (orphans
and vulnerable children and their host families), not necessarily living with HIV/AIDS.

Third, although the draft audit report acknowledges that Le Soutien was an NPI partner
and notes that a goal of NPI is to “enhance [New Partners’] technical and organization
capacity,” it does not take this goal into account in the conclusion that “no results were
evident” from Le Soutien’s activities. OHA has evidence of staff of Le Soutien attending
training as scheduled over the life of the Agreement in areas such as implementation
strategies, compliance with USG and PEPFAR Guidance, strategic planning, country
registration, financial management, human resource management, and network building.
By an NPI partner having its employees attend these trainings, results under the
Agreement are being achieved.              Furthermore, all NPI partners underwent
comprehensive organization capacity assessments – reviewing areas of governance,
human resources systems, administration, financial systems, organizational
management, programmatic management, and project performance – twice, once at the
beginning of the award and again at close-out. Le Soutien went through assessments in
January 2007 and again at close-out in November 2009. Results of the assessment
demonstrate that the capacity of Le Soutien as an organization as well as its employees
as individuals in the areas described above was improved, again showing results under
the Agreement.

Fourth, OHA agrees that the model of running and monitoring a program like NPI from
Washington presents challenges that need to be addressed. In fact, the AOTR has
been directly involved in the Agency’s procurement reform efforts, providing input and
lessons learned on this very topic. Nevertheless, the AOTR did meet in Côte d’Ivoire
with Le Soutien twice, sent representatives from the NPI Washington team twice, and
participated in weekly monitoring calls with the in-country TA provider. We note that the


                                            38 

                                                                          Appendix II


allegations of fraud that gave rise to the audit report issued in August 2009 were
originally reported to the AOTR and the AO, who referred the matter to the RIG/Dakar in
July of 2008. Furthermore, the AOTR has evidence of hundreds of communications, in
emails and phone calls, with the employees of Le Soutien itself. We would also like to
point out that during the period of this Agreement, death threats were reported to
American and local staff, hampering the ability of in-person monitoring both from
Washington and from USG Cote d’Ivoire personnel.

Target Date: March 31, 2011. Action was for NPI AOTR (with assistance from
USAID Abidjan)

Recommendation No. 2 – We recommend that USAID/West Africa make a final
determination for the allowability of $708,080 of program expenses, which includes the
costs of motorbikes, desks, and scanner that have not been returned, and recover
amounts determined to be disallowed.

Management Response: Le Soutien is a partner under the New Partners’ Initiative
(NPI) program, a program which is run by USAID/Washington. Because the Agreement
Officer (AO) and the Agreement Officer’s Technical Representative (AOTR) for the Le
Soutien Cooperative Agreement are both based in Washington, the action for this
recommendation is more appropriately addressed by USAID/Washington. USAID/West
Africa has referred this recommendation to USAID/Washington and their comments are
included below.

Upon receipt of the August 2009 audit report, the AO made a determination of
allowability, determined that $284,540 of costs were disallowed, and issued a bill of
collection in that amount. The AO, in conjunction with OHA, will use best efforts to take
steps to audit the costs not previously reviewed.

With respect to the program assets, on November 24, 2009, the AO sent a letter to Le
Soutien requesting distribution of the Le Soutien program assets to eight other USAID
partners in Cote d’Ivoire. On December 8, 2009, the AOTR received notice that, other
than the motorbikes, all program assets had been distributed as requested. On
December 30, 2009, the AO issued a bill of collection in the amount of $11,790 for the
motorbikes.

Target Date: March 31, 2011. Action: NPI AOTR (with assistance from USAID
Abidjan)

Recommendation No. 3: We recommend that USAID/West Africa develop and
implement a strategy to address Reseau Ivoirien des Organisations de Personnes
Vivant avec le VIH (RIP+’s) misconduct and misuse of U.S. Government funds.

Management Response: RIP+ is a partner under the New Partners’ Initiative (NPI)
program, a program which is run by USAID/Washington. Because the Agreement
Officer (AO) and the Agreement Officer’s Technical Representative (AOTR) for RIP+ are
both based in Washington, the action for this recommendation is more appropriately
addressed by USAID/Washington.             USAID/West Africa has referred this
recommendation to USAID/Washington and their comments are included below.

The AO will work to finalize the determination of whether any costs under the RIP+


                                          39 

                                                                           Appendix II


Cooperative Agreement should be disallowed and a bill of collection issued for any such
costs. The AO has begun discussions with M/OAA/E to determine whether a referral for
suspension or debarment of RIP+ or any of its Board Members individually is appropriate.

While we agree with the conclusion that we should consider taking action against the
organization of RIP+, we would like to make a few clarifying statements relating to other
conclusions in the draft audit report pertaining to RIP+.

First, the draft audit report states that “RIP Plus was not able to provide any evidence to
support program activities.” However, OHA has evidence that the Agreement targets
were met in the range of 0%-70%, with the average being that they met 20-40% of their
targets.     OHA provided a summary of this information to Regional Inspector
General/Dakar on April 14, 2010. Furthermore, part of the activity of RIP+ was to grant
subawards to other organizations to achieve targets; OHA has evidence that 30
subawards were granted – thereby again showing that activities under the Agreement
were being achieved.

RIP+ objectives included:

	 Institutionalize a National Testing Day. RIP+ succeeded in helping to organize the
   first National Testing Day (2009), which surpassed its national target, was widely
   judged a success, and earned considerable praise for RIP+’s community-
   mobilization and counseling/referral efforts. The second National Testing Day is
   planned for early 2011.

	 Build administrative and technical capacities of local organizations of people living
   with HIV/AIDS (PLWHA). RIP+ organized a significant number of trainings and other
   capacity-building activities in prevention, palliative care, monitoring and evaluation
   (M&E), and governance for RIP+ itself and for member PLWHA organizations. This
   can be confirmed by the USAID/Washington AOTR, the AED consultant who
   provided TA to RIP+, PEPFAR in-country staff, RIP+ members, and member
   PLWHA organizations. RIP+ also helped start local associations and support groups
   for PLWHA around the country, conducted capacity analyses of local PLWHA
   organizations, donated IT equipment to local organizations, and helped member
   PLWHA organizations develop M&E plans.

   Implement positive prevention activities. RIP+ developed a positive-prevention
    approach/process and trained national trainers and local PLWHA organizations in
    this approach.

	 Strengthen the national HIV/AIDS response through advocacy and policy work. RIP+
   conducted a variety of advocacy and information activities, including presentations
   during National AIDS Days, advocating for availability and use of generic and free
   antiretroviral drugs (ARVs), organizing and conducting a national workshop with 72
   health districts to promote the “district approach,” and helped develop national
   guidelines for community/lay counselors.

RIP+ never had a goal of testing 100,000 people (or even one person). It had a goal of
helping to institute a National Testing Day, which it succeeded in doing. (The 100,000
was an estimate of how many would be tested during National Testing Days, though not



                                           40 

                                                                           Appendix II


by RIP+)RIP+ was never supposed to “administer HIV/AIDS tests.” It is not accurate, as
a blanket statement, to say that RIP + “did not accomplish these objectives” or that “very
few, if any, activities were implemented.”

Second, like with Le Soutien, although the draft audit report acknowledges that RIP+
was an NPI partner, it does not take the goals of the NPI program into account when
stating that “about $1.6 million of U.S. government funds were expended with little to
demonstrate.” A central focus of the NPI program was to work with new partners who
were unfamiliar with US standards of financial and organizational management, and
build their capacity to effectively manage funds and programs in the future by providing
regular training over the life of the Agreement and providing in-country support from
another partner of USAID contracted to provide technical assistance (TA) to the NPI
partners. OHA has evidence of staff of RIP+ attending training as scheduled over the
life of the Agreement in areas such as implementation strategies, compliance with USG
and PEPFAR Guidance, strategic planning, country registration, financial management,
human resource management, and network building. By an NPI partner having its
employees attend these trainings, results under the Agreement are being achieved.
Furthermore, all NPI partners underwent comprehensive organization capacity
assessments – reviewing areas of governance, human resources systems,
administration, financial systems, organizational management, programmatic
management, and project performance – twice, once at the beginning of the award and
again at close-out. RIP+ went through assessments in January 2007 and again at
close-out in November 2009. Results of the assessment demonstrate that the capacity
of RIP+ as an organization and its employees as individuals in the areas described
above was improved, again showing results under the Agreement.

Third, as with Le Soutien, the draft report incorrectly describes the agreement with RIP+
as a “contract.” RIP+ received a Cooperative Agreement, not a contract, a distinction
that is important because the level of influence and control retained by the AO and the
AOTR is much less than is the case when there is a contract.

Fourth, the draft audit report highlights an instance where some members of the board
formed NGOs with the intention of winning subawards with RIP+, with the situation
ultimately being resolved by the board members agreeing to not have any subawards go
to their NGOs. A full account of this instance illustrates both the type of capacity-
building activities inherently necessary within the context of the NPI program, as well as
the ongoing monitoring and involvement of the AO and the AOTR. While visiting Cote
d’Ivoire in 2008, the AOTR determined that there was a conflict of interest between
some Board members who were also in control of proposed sub-grantee awardees.
Since the Cooperative Agreement’s Substantial Agreement Clause required AOTR
approval of subawards, the AOTR determined that she could not approve these until
those with conflicts selected to either serve on the Board or resigned from the Board
while maintaining their organizational leadership. After an extended period and much
negotiation did every Board member with a conflict choose one of the options. This
delay in RIP+ Board members choosing which option to pursue seriously delayed
awarding subawards to RIP+ association members – as mentioned above, a key
component to achieving RIP+’s stated results. This identification of conflict of interest
and subsequent measures was conducted by OHA, not USAID/West Africa.

Another example of the difficulties inherent in the NPI program that required extensive
input from the AO and the AOTR is the Board’s By-Laws. The By-Laws proved to be a


                                           41 

                                                                         Appendix II


serious hindrance to the functioning of the organization. These were identified during
the AOTR’s visit in 2008. For example, the Board Chair was required to sign any check
over $50.00. As a result of this, he was effectively able to manage the flow of funds to
the detriment of the organization and towards the end of the Agreement, he apparently
refused to sign any checks. However, since this was a cooperative agreement (not a
contract, as clarified above), it was not within USAID’s purview to change an
organization’s by-laws, assuming that they were in compliance with local laws. Once the
issue was discovered, the AOTR directed the TA provider to provide specific additional
training in good governance, in Cote d’Ivoire, to the Board members, the leadership
team, and RIP+’s subpartners.

Finally, again, OHA agrees that the model of running and monitoring a program like NPI
from Washington presents challenges that need to be addressed, which is why the
AOTR is sharing the lessons learned from the NPI experience as part of the Agency’s
procurement reform efforts. Nevertheless, the AOTR did visit the program site twice,
sent representatives from the NPI Washington team twice, and participated in weekly
monitoring calls with the in-country TA provider. Furthermore, the AOTR has evidence
of hundreds of communications, in emails and phone calls, with the employees of RIP+
itself. We would also like to point out that during the period of this Agreement, death
threats were reported to American and local staff, hampering the ability of in-person
monitoring both from Washington and from USG Cote d’Ivoire personnel.

Target Date: June 30, 2011. Action was for NPI AOTR (with assistance from
USAID Abidjan)

Recommendation No. 4: –We recommend that USAID/West Africa settle and
document any outstanding fees related to the financial audit of Reseau Ivoirien des
Organisations de Personnes Vivant avec le VIH (RIP+) by the external auditors to obtain
the audit report.

Management Response: RIP+ is a partner under the New Partners’ Initiative (NPI)
program, a program which is run by USAID/Washington. Because the Agreement
Officer (AO) and the Agreement Officer’s Technical Representative (AOTR) for RIP+ are
both based in Washington, the action for this recommendation is more appropriately
addressed by USAID/Washington.             USAID/West Africa has referred this
recommendation to USAID/Washington and their comments are included below. Per
discussions with the Deloitte auditors in February 2010, USAID Abidjan-based staff
learned that Deloitte was paid by RIP+ for the audit work. Copies of the final financial
audit report performed by Deloitte have been distributed to both USAID/Cote d’Ivoire and
RIG/Dakar. Based on the above, we request closure of this recommendation upon
issuance of the final audit report.

Target Date: March 31, 2011. Action was for NPI AOTR (with assistance from
USAID Abidjan)

Recommendation No. 5: We recommend that USAID/West Africa, in conjunction with
Supply Chain Management System, review the inputs used to forecast demand to
ensure that drugs are available when needed.

Management Response: We agree with this recommendation. Both the quantification
methodology and input data for projecting demand are currently being reviewed by


                                          42 

                                                                           Appendix II


stateside CDC and USAID logistics specialists, with follow-up from PEPFAR/CI agency
heads and technical staff. This is a top priority for both agencies.

However, we note that the Supply Chain Management System (SCMS) Project is a
USAID/Washington award with the COTR and Agreement Officer located in Washington,
D.C. We request that the recommendation be rephrased to correctly identify the
appropriate action office(s) in USAID/Washington.

Target Date: June 30, 2011. Action: SCMS COTR, with assistance from USAID
Abidjan.

Recommendation No. 6: We recommend that USAID/West Africa, in conjunction with
Supply Chain Management System, request the Government of Côte d’Ivoire in writing,
to communicate all changes in drug protocols to dispensing facilities timely[sic] to ensure
that the right prescriptions are given to patients.

Management Response. USAID/CI will make this request to the GOCI Ministry of
Health (MOH), in writing as suggested, before the end of the year. However, it should be
noted that the MOH PNPEC (National HIV/AIDS Program) is solely responsible for
communicating changes in the national treatment guidelines to dispensing facilities.
Abidjan-based USAID and CDC Agency heads and senior staff will work closely with
PNPEC (National HIV/AIDS Care and Treatment Program) and PSP (National Public
Health Pharmacy) and with appropriate PEPFAR care and treatment partners to help
disseminate this information and to verify that each antiretroviral therapy (ART) site has
these protocols. SCMS will be called on for assistance as necessary. We do not
believe that USG actions alone will solve the problem and we will continue to work with
GOCI counterparts and other donors to strengthen compliance and enforcement of MOH
guidelines at the facility level.

Supply Chain Management System (SCMS) is a USAID/Washington award with the
COTR and Contracting Officers located in Washington, D.C. We request that the
recommendation be rephrased to correctly identify the appropriate action officer(s) in
USAID/Washington.

Target Date: June 30, 2011. Action: SCMS COTR, with assistance from USAID
Abidjan.

Recommendation No. 7: We recommend that USAID/West Africa, in conjunction with
Supply Chain Management System, upgrade or develop a mechanism in the Logistic
Management Information System to track drugs that are out of stock or will be out of
stock to ensure timely replacement/reorders.

Management Response: A tool for tracking the expiration dates of drugs was recently
incorporated into the ARV LMIS. This has strengthened the MOH’s capacity to predict
and therefore avoid stockouts of ARVs. SCMS will continue to provide support to the
paper-based LMIS while working on the development of a comprehensive integrated
electronic LMIS that will include ARVs and related laboratory supplies (now tracked by
two separate LMIS). The new LMIS will be able to aggregate, validate and analyze data
and generate electronic reports in real time on consumption, stock levels and
requisitions. By the end of 2011, the paper-based LMIS will have all the tracking
capabilities that are now missing. By the end of the following year (2012), we expect the


                                           43 

                                                                           Appendix II


integrated electronic LMIS system to be fully functional. PEPFAR CI and the PSP have
also begun to carry out regular spot checks of drug stocks at random ART sites as well
as at sites where reported consumption data and service statistics deviate from historical
trends. See also our comments under Recommendation No. 13.

Please note that Supply Chain Management System (SCMS) is a USAID/Washington
award with the COTR and Contracting Officer located in Washington, D.C. We request
that the recommendation be rephrased to correctly identify the appropriate action
office(s) in USAID/Washington.

Target Date: Sept. 30, 2011. Action: SCMS COTR, with assistance from USAID
Abidjan.

Recommendation No. 8: We recommend that USAID/West Africa implement adequate
controls to ensure that drugs are properly maintained and accounted for by requiring
regular physical inventory counts to be conducted by health facilities and spot checks by
USAID and by disallowing drug trades among doctors unless prior approval from
Pharmacie de Santé Publique is obtained.

Management Response: We suggest that Recommendations 8 and 9 be combined
and reformulated taking into account the information provided below. Suggested
revision: We recommend that USAID advise the GOCI MOH of the need for greater
accountability for the maintenance and disposition of USG-procured drugs and request
that the MOH provide USAID with copies of its supervision reports on physical inventory
and status of USG drugs at health facility sites, for the duration of the SCMS project.

The maintenance and tracking of ARVs and other HIV/AIDS commodities are managed
through the GOCI National Public Health Pharmacy (PSP) with support from SCMS, a
USAID/Washington project with the COTR and Contracting Officers located in
Washington, D.C. We request that the recommendation be rephrased to correctly
identify the appropriate action officer(s) in USAID/Washington.

While we agree with Recommendation 8 in principle, we believe that it is the
responsibility of the GOCI and not USAID to ensure that drugs are properly maintained
and accounted for. USAID will encourage and facilitate this through continued dialogue
with the MOH and the provision of technical assistance through SCMS. USAID will
inform the MOH, in writing, of our concerns about maintenance and accountability of
USG-provided drugs and supplies. We will officially request regular spot checks and
reports from the MOH and from appropriate PEPFAR-funded implementing partners
regarding physical inventory and status of USG procurements at facility sites.

We take this opportunity to provide more perspective on the drug distribution system in
CI by describing the environment in which it operates. A decade of political turmoil, civil
unrest, and an ineffectual coalition government have taken their toll on CI’s national
health systems, including its drug logistics system. With technical assistance from
SCMS, the MOH put the current paper-based logistics system in place in 2008 to track
ARV use. The system is quite accurate if users at all levels of the health pyramid follow
implementation guidelines properly and consistently. The MOH PNPEC (National
HIV/AIDS Care and Treatment Program) has ultimate responsibility for ARV logistics but
has not shown the professional rigor and tenacity to enforce national guidelines in regard
to ARV logistics and has not coordinated well with other GOCI MOH units that also play


                                           44 

                                                                                Appendix II


important roles in logistics, such as the PSP and the DIPE (Directorate for Information,
Planning, and Evaluation). The PSP is responsible for procurement and distribution of
drugs throughout the country, but it has no authority to request, much less enforce, new
inventory and reporting requirements for health facilities. In the current political
environment, there is no quick fix for the lack of coordination and cooperation among the
MOH entities that should work together to ensure a smoothly functioning drug logistics
system.

With SCMS support, the PSP has clarified roles and drug distribution schedules are met.
SCMS is responsible for the ordering, reception and delivery of drugs to the central PSP
warehouse in Abidjan. PSP delivers the ARVs to the heath district pharmacies (N=101),
and to the national and regional hospitals. All ART sites outside Abidjan receive their
ARV stocks once per month, while sites in Abidjan receive their stocks every two weeks.
LMIS inventory control guidelines recommend a maximum three-month stock of ARVs at
district pharmacies and hospitals, and a maximum two-month stock at ART sites. If
facilities and district pharmacies followed the protocol and reported monthly consumption
to the PSP, there would be no stock-outs. At the health district level, a shortage of
vehicles has contributed to late drug deliveries to sites.

The MOH PSP would like to shift more stock from its central warehouse in Abidjan to
district facilities throughout the country to facilitate rapid deliveries to treatment sites, but
this can only be achieved with substantial support from donors.

With regard to forecasting and quantification of ARVs, PEPFAR and the PSP have
worked out a functional system. In January-February of each year, the PSP carries out
an active collection of all logistics data at all ART sites. Collection entails a physical
inventory, i.e. stock counts; consumption rates; compliance with national maximum and
minimum stock norms; service reports on the number of new and continuing ART and
prevention of mother-to-child transmission (PMTCT) patients; the number of patients lost
to follow–up; and the number and percentage of people whose treatment regimen was
changed. The PSP compares this data to data reported by all ART sites nationwide and
prepares ARV forecasting and quantification tables.

Regarding the transfer of drugs between facilities, this practice is sanctioned by the
MOH under authority delegated to the district pharmacists. Since the health system in
Côte d’Ivoire is decentralized, the PSP has no authority to sign off on the transfer of
drugs from one health facility to another, as the RIG auditors recommended be done.
The PSP has facilitated the process by designing and distributing the national tools
(forms) that must be filled out to document a transfer. Transferring drugs between
facilities is not problematic in and of itself; in fact it can help to minimize the number of
expired products at service sites. It only becomes problematic when service sites fail to
complete and submit the proper documentation to the district pharmacists who, in the
absence of this information, cannot adjust district drug distribution records and
subsequent orders to the PSP.

Through SCMS, USAID will continue to assist the MOH to improve drug maintenance
and accountability. As part of the process of developing the electronic LMIS system,
SCMS has assisted the MOH to implement adequate controls to ensure that drugs are
properly maintained and accounted for at health facilities. These controls include the
requirement that health facilities conduct monthly physical inventory counts. USAID and
SCMS will continue to emphasize to our MOH counterparts the need for diligence,


                                              45 

                                                                            Appendix II


consistency, and rigor with regard to inventory control. SCMS is also assisting the MOH
and PEPFAR implementing partners in revising a supervision protocol that will include
spot checks of drug stocks. As mentioned under audit recommendation No. 7, PEPFAR
CI and the PSP have begun to carry out spot checks at random ART sites as well as at
sites where reported consumption data and service statistics deviate from historical
trends.

The Memorandum of Understanding (MOU) between the GOCI MOH and SCMS is
currently being revised. If proposed changes in the MOU are accepted by the MOH,
SCMS will provide additional assistance and will support the MOH and PEPFAR
implementing partners (IPs) in establishing a supervision mechanism that will include
training of MOH district and regional staff in verification of drug consumption reports. If
approved, SCMS will intensify TA efforts to construct a single well-functioning Logistics
Management Unit (LMU) that incorporates the several vertical offices (including the ARV
Unit) that currently operate at the PSP. The LMU will be based at the central level and
will validate and analyze logistics information; it will also be able to verify that monthly
inventory controls have been conducted and reported prior to approval of orders.

Target Date June 30, 201.       Action: SCMS COTR, with assistance from USAID
Abidjan.

Recommendation No. 9: We recommend that USAID/West Africa, through the
Government of Cote d’Ivoire, implement adequate controls to ensure that current drug
inventory and pharmacy consumption levels are verified before drug requests are
approved and delivered.

Management Response: We suggest that Recommendations 8 and 9 be combined
and reformulated. See comments under Recommendation No. 8.

Target Date: June 30, 201. Action: SCMS COTR, with assistance from USAID
Abidjan.

Recommendation No. 10: We recommend that USAID/West Africa make a final
determination of the allowability of the amount of missing cotrimoxazole and recover any
amounts determined to be unallowable.

Management Response: We suggest that Recommendation No. 10 be revised to say:
“We recommend that USAID/SCMS continue to work with the MOH to establish a plan
and schedule for implementing the recommendations of the July 2010 joint PNPEC,
PSP, and SCMS team concerning the use of cotrimoxazole at service delivery sites.

In July 2010, a team comprised of representatives from the PNPEC, the PSP, and
SCMS conducted site visits at 17 health facilities, including the ones cited by the
auditors, to examine how cotrimoxazole (CTX) was dispensed at the sites. They
confirmed the auditors’ findings that quantities of CTX were missing from certain sites.
They concluded that, contrary to MOH guidelines, CTX was not reserved exclusively for
preventing and treating opportunistic infections in PLWHAs but was prescribed for
various pathologies in all patients. The team further noted staff weaknesses in record
keeping and drug ordering practices, and only partial understanding of stock
management principles and LMIS tools.



                                            46 

                                                                          Appendix II


Based on its findings, the team recommended the following:
   (1) 	 Quality control of reporting data should be integrated into regular supervision
         visits at all levels of the health system.
   (2) 	 Regular quality control visits (such as the one conducted in July 2010) should be
         organized and conducted, as necessary, by PNPEC and PSP, based on an
         analysis of consumption reports submitted to the PSP by the districts.
   (3) 	Where significant discrepancies are noted between ART patient and ARV
         consumption data, the PNPEC and PSP should work with sites to determine the
         average monthly consumption rates and reaffirm that the CTX should be
         reserved for PLWHAs.
   (4) 	 Report “recidivist” sites that do not comply with MOH directives to the Director
         General of Health for further action.
   (5) 	The PSP should organize additional trainings in the LMIS with a focus on
         personnel at high-consumption sites.

While there is evidence that drugs (CTX) are missing and were dispensed to non-
PLWHAs patients, we do not believe it is in the best interests of PEPFAR to devote staff
time and effort at this point to “recover any amounts [of CTX] determined to be
unallowable.” However, we believe it is reasonable to expect the MOH to establish a
plan and schedule for implementing the above recommendations by early CY2011.
USAID CI staff will continue to insist that the MOH strengthen compliance and
enforcement of its own rules and guidelines and will provide technical assistance
through SCMS to further strengthen the drug consumption monitoring system.
Furthermore, USAID CI, in collaboration with CDC PEPFAR colleagues, will request that
PEPFAR implementing partners take a more active role in the monitoring of CTX and
their respective sites.

Target Date: June 30, 2011. Action: SCMS COTR, with assistance from USAID
Abidjan.

Recommendation No. 11: We recommend that USAID/West Africa work with the
government of Côte d’Ivoire to develop and implement a plan to destroy the expired
drugs currently in storage.

Management Response: In November 2009, USAID, the MOH, SCMS and several
other stakeholders developed a plan to destroy the expired drugs currently in storage in
a warehouse that was rented for PSP’s use while its main warehouse was being
renovated. It should be noted that these drugs had been accumulating throughout the
country since 1998, five years before the start of PEPFAR in CI. At the request of the
MOH, SCMS and the PSP collected the drugs from ART sites, stored them in the rented
warehouse, and familiarized themselves with the complex procedures -- per WHO
guidelines -- to be followed for their destruction.

Although the expired drugs were collected in late 2009, they have not yet been
destroyed due to a lack of MOH funding for this. The GOCI is currently mobilizing funds
to destroy the drugs. The MOH and Ministry of Economy and Finance are finalizing an
inter-ministerial decree that will allow the PSP to use some of the GOCI ARV cost
recovery funds to pay for the destruction of the expired drugs, now estimated to take
place some time in early 2011.

Target Date: March 31, 2011. Action: SCMS COTR, with assistance from USAID


                                           47 

                                                                             Appendix II


Abidjan.

Recommendation No. 12: We recommend that USAID/West Africa work with the
government of Cote d’Ivoire to develop and implement a policy for storage, pickup, and
destruction of expired drugs and effectively communicate it to all health facilities
affected.

Management Response: A policy is in place, but is not enforced. According to the
DPM (the MOH Drug Regulatory Directorate), destruction of expired drugs is the
responsibility of the receiving health district/sites. The onus is on the health districts to
order the correct quantities of ARVs, based on patients’ needs, and to dispense the
drugs before their expiration dates. But, given the cost and required procedures for
destroying expired drugs, the districts have neither the financial or physical means for
disposal. Instead, expired drugs are simply set aside and stored. We recommend that
SCMS work with the appropriate MOH authorities DPM, PSP, etc.) and WHO to revise
and validate a national policy on waste products, including expired drugs. The validated
national policy on management of expired pharmaceuticals should be communicated
and disseminated to health facilities by DPM.

However, since SCMS is a USAID/Washington award, we request that the
recommendation be rephrased to correctly identify the appropriate action office(s) in
USAID/Washington.

Target Date: Sept 30 , 2011. Action: SCMS COTR, with assistance from USAID
Abidjan.

Recommendation No. 13: We recommend that USAID/West Africa upgrade the
Logistics Management Information System to identify expiring drugs and implement
plan to use drugs before they expire to prevent waste.

Management Response: We would like to point out that assistance to the MOH for the
LMIS is provided by SCMS, a USAID/Washington award with the COTR and Contracting
Officer located in Washington, D.C. We request that the recommendation be rephrased
to correctly identify the appropriate action office(s) in USAID/Washington.

We agree with this recommendation and note that it is very similar to Recommendation
No. 7. We take this opportunity to point out that actions are on-going to improve the
logistics system and minimize wastage to the greatest extent possible. For example,
with assistance from SCMS, the MOH is currently modifying existing ARV and laboratory
LMIS tools to incorporate entries that capture expiration dates and related remarks.
SCMS developed and is currently piloting an Electronic Dispensing Tool (EDT) at 10
service sites. Upon successful completion of the pilot activity in March 2011, the EDT will
be progressively rolled out to 240 sites. We estimate that the system will be fully
functional by the end of CY2012. SCMS also plans to work with the PSP, PNPEC, and
DIPE to enhance the quality of reporting through quarterly supervision visits.

Target Date: March 31, 2011. Action: SCMS COTR, with assistance from USAID
Abidjan.

Recommendation No. 14: We recommend that USAID/West Africa work with the
Government of Cote d’Ivoire to develop and implement a plan to address proper storage


                                            48 

                                                                          Appendix II


of HIV/AIDS drugs at all warehouses.

Management Response: Assistance in addressing drug storage is provided to the
MOH by the SCMS Project which is a USAID/Washington award with the COTR and
Contracting Officers located in Washington, D.C. We request that the recommendation
be rephrased to correctly identify the appropriate action officer in USAID/Washington.

A comprehensive plan was drawn up in 2009, with technical assistance from USAID
through SCMS, to address warehouse deficiencies identified at the PSP central
warehouse in Abidjan. With continued assistance from SCMS, the PSP began
implementing the plan in 2010, and all deficiencies at this warehouse have been
addressed with the exception of climate control. For recurrent cost reasons, the former
PSP director did not approve the installation of air conditioners at the warehouse,
pending a study of alternative cooling measures. However, her successor, who took
over in August 2010, has reversed that decision, and SCMS is procuring the needed
climate-control equipment, including air conditioners and roofing materials.

SCMS has also made recommendations to improve conditions at district supply sites
(there are no regional warehouses yet, only plans to build five), but it is beyond the
scope of work and funding level of SCMS to implement these recommendations. We
have shared these recommendations with the MOH/PSP and will share them with other
donors and potential private-sector investors and advocate for their support. In addition,
in the recently submitted PEPFAR COP 2011 (implementation period is mid-2011 to
mid-2012), USAID/CI has proposed that SCMS work with the MOH Directorate for
Infrastructure, Equipment and Maintenance (DIEM) to develop national standards for
site, district, and regional warehouses.

Target Date: March 31, 2011. Action: SCMS COTR, with assistance from USAID
Abidjan.

Recommendation No. 15: We recommend that USAID/West Africa work with the
University of North Carolina to implement the action plans developed as a result of the
program assessment conducted in fiscal year 2008.

USAID/WA Management Response: The MEASURE Evaluation Phase III Project
(referred to as MEASURE hereafter) is implemented by John Snow Inc. (JSI) through a
sub-award with the Carolina Population Center, University of North Carolina under a
USAID/Washington cooperative agreement (Leader with Associate award).           The
USAID/AOTR and Agreement Officer are located in Washington, D.C. We request that
the recommendation be rephrased to correctly identify the appropriate awardee and
action officer(s) in USAID/Washington.

We agree with the recommendation. However, it incorrectly implies that MEASURE has
not yet acted on the recommendations of the 2008 PRISM Project. In this regard the
audit report presents an incomplete and misleading picture of the MEASURE Project
and its challenges and achievements. The recommended activities proposed under
PRISM were included in MEASURE’s COP 2009 work plan and are continuing under
MEASURE’s COP 2010 work plan which began in October 2010. See Annex 2 for a
table showing PRISM recommendations and the work plan activities designed to
address them. Some of the activities are discussed below.



                                           49 

                                                                           Appendix II


MEASURE activities are managed by a USAID/Washington AOTR (not COTR) with
assistance from a small number of technical staff who cover more than 100 activities in
40 countries. Although Washington-based staff have not conducted regular field visits to
CI, there has been regular and frequent contact, by phone and email, among
USAID/Washington, USAID/CI, and the JSI in-country team. USAID/CI meets regularly
with the JSI in-country team and consultants. We sent several MEASURE reports --
describing activities, strategies, results, successes and challenges -- to the RIG auditors
in July 2010 in response to their preliminary audit report, but none of the pertinent
information contained therein was reflected in the revised report.

The RIG auditors seem to have focused only on a narrow portion of MEASURE’s scope
of work in CI, providing a poor understanding of the project and leading the auditors to
conclude, on Page 15 that “the MEASURE Program was not implemented as intended.”
The auditors investigated whether data from the HIV/AIDS patient monitoring system
were being used at the health facility level. But MEASURE works primarily at the
national/central level. MEASURE works to strengthen MOH capacities for collection,
reporting and aggregation of HIV data; promotes regular reviews of HIV/AIDS data and
supportive supervision within the MOH; and advises on the production and
dissemination of national HIV/AIDS reports. In addition, MEASURE works with three
other GOCI ministries at the national/central level. None of these other components of
the MEASURE Program were considered by the RIG auditors.

The audit report reflects an inadequate understanding of the MEASURE Project’s
progress from improved data collection to improved data use. On Page 16, the auditors
stated that they “noted that health facilities were using registers to record patient
information, but further analysis of the data to make important administrative decisions to
improve overall patient care was not performed.” While data use is the ultimate goal of
the MEASURE Project, much is required before this can be achieved. We believe that
the audit report does not give adequate recognition to the difficulties and time investment
inherent in getting people to use data to plan and manage their programs. This is not a
problem that is unique to CI. It is a process that sometimes takes years of sustained
effort. MEASURE is well aware that participating facilities are not yet systematically
using data for decision-making, and its COP 2010 work plan includes an emphasis on
building capacity to use data.

As a necessary precursor to effective data use, the MEASURE project has succeeded in
improving the data collection process. The auditors documented that patient registers
and other forms developed by the MOH with assistance from MEASURE were in use
and that data were being collected and reported to the district and national levels. The
use of the forms nationwide represents the culmination of work that required building
consensus, harmonizing indicators, developing and revising forms, training workers, and
logistics planning to ensure the availability of forms at all HIV care and treatment sites.

MEASURE began its work to strengthen data use as part of its work plan for CY2010,
starting 6six months before the audit. This is not sufficient time to achieve this type of
objective. Furthermore, the stated data use objective in the work plan does not specify
use of patient level data or use for improving patient care. To date, MEASURE’s focus
has been to assist MOH national and district level staff, who use the aggregated data
being collected and reported through the information system. The RIG did not interview
national-level MOH staff; if they had, they would have learned that data is indeed being
used at the national level for program planning and budgeting. The DIPE produces and


                                           50 

                                                                          Appendix II


disseminates the GOCI Rapport Annuel sur la Situation Sanitaire en Côte d’Ivoire
(Annual Report on the Health Sector) and the Rapport Annuel du VIH/SIDA (Annual
HIV/AIDS Report). The DIPE has plans to produce the HIV/AIDS report semi-annually.
In addition to providing the data on which the national health budget is based, these
reports are used to design the GOCI’s proposals for Global Fund support as well as by
all health sector donors to design and budget for their respective assistance programs.

On Page 17, the auditors wrote that “in 2008 (4 years after implementation), the project
commissioned an evaluation to determine program effectiveness. According to JSI
officials the evaluation noted the following: program data were used at only 38% of
health facilities and 44% of districts; medical personnel using data were poorly trained …
; personnel who should be using the data were not doing so….; and the quality of the
data being generated and used by facilities was inadequate.” We would like to clarify
that the purpose of the 2008 PRISM Assessment was not to assess the effectiveness of
the MEASURE Project, but to assess the state of the national health information system.
The same assessment, when compared to a similar assessment completed in January
2004, shows improvements in the quality of HIV data. For example, data accuracy of
50% for two key HIV indicators represented an improvement from 45% and 31% in
January 2004.

The first opportunity to introduce new activities to address the findings of the 2008
Assessment was the COP 2009. The routine data quality assessments that are being
institutionalized as part of the supportive supervision conducted by the national and
district levels were included in the FY09 work plan to address data quality. In addition,
reports on several activities that were included in the FY09 work plan were shared with
the RIG but not mentioned in the audit report. For instance, new partnerships were
established with ENSEA (National School of Statistics and Applied Economics) and
INFAS (National Institute for Health Workers) to conduct M&E courses in July 2010.
Between September 2009, and March 2010 when the RIG audit took place, MOUs were
negotiated and signed with the two pre-service training institutions, a workshop was
completed in January 2010 to finalize the curriculum with technical assistance from U.S.­
based MEASURE staff, and a data use component was integrated into the curriculum.
The training of trainers for ENSEA was completed in May 2010 and the first Data
Analysis, Use and Quality Workshop was taught at ENSEA in June 2010, in accordance
with the work plan submitted to the mission.

MEASURE is planning to send a team from Washington to CI to further discuss the audit
findings with the PEPFAR CI team, in-country MEASURE staff and host country
counterparts and to make any necessary adjustments in its work plan and strategies.
This visit is likely to be scheduled during the first quarter of CY 2011.

Target Date: Sept. 30, 2011. Action for MEASURE Evaluation AOTR, with
assistance from USAID Abidjan.

Recommendation No. 16: We recommend that USAID/West Africa work with the
University of North Carolina to develop and implement a monitoring plan, which includes
communication with users, frequent site visits, and prompt attention to problems to
improve implementation of the project.

Management Response: The MEASURE Evaluation Project is implemented by John
Snow Inc. (JSI) through a sub-award with the Carolina Population Center, University of


                                           51 

                                                                          Appendix II


North Carolina under a USAID/Washington Leader with Associate award; the
USAID/AOTR and Agreement Officer are located in Washington, D.C. We request that
the recommendation be rephrased to correctly identify the appropriate awardee and
action office(s) in USAID/Washington.

MEASURE’s role is to provide technical assistance to help the MOH Directorate of
Information, Planning, Evaluation (DIPE) to perform its role at the health facility level.
MEASURE works at the national/central level. We do not agree with Recommendation
as it is worded. It is not MEASURE’s role to conduct frequent site visits to health
facilities. To promote sustainability and country ownership, MEASURE encourages the
DIPE to conduct frequent site visits to GOCI facilities. On occasion, a MEASURE staff
person accompanies someone from the DIPE to a site, but MEASURE staff cannot
perform what is an inherently GOCI function.

Based on the above, we suggest that the Recommendation No. 16 be revised to say:
We recommend that the MEASURE Evaluation Project work with the MOH DIPE to
develop and implement a monitoring plan that includes communication with health
districts, frequent site visits, and prompt attention to problems to improve data use,
analysis and decision-making at the local level.

Target Date: Sept. 30, 2011. Action: MEASURE Evaluation AOTR, with assistance
from USAID Abidjan.

Recommendation No. 17: We recommend that USAID/West Africa develop and
implement a monitoring plan for PEPFAR activities in Cote d’Ivoire that includes
adequate resources to provide regular communication with users, frequent site visits,
and prompt attention to problems to improve program implementation.

Management Response: USAID/WA agrees with this recommendation. The entire
PEPFAR CI inter-agency team has supported increased funding to USAID to strengthen
project monitoring. USAID’s management budget for the PEPFAR CI program more
than tripled from COP 2007 to COP 2011.

USAID/WA has been working with USAID Abidjan staff to review and revise its project
assignments/coverage to ensure that there is proper oversight for all USAID activities,
regardless of the awarding office. USAID Abidjan-based staff, in consultation with
USAID/WA, have made the recruitment of additional staff a top priority. As of November
2010, USAID CI’s portfolio consists of four (soon to be six) awards by USAID/WA and 15
awards by USAID/Washington. As was correctly pointed out by the RIG, the USAID/W
AOTRs/COTRs are often responsible for activities in dozens of countries and do not
have the time or resources to follow activities in the field. They rely on in-country
resident advisors and project managers for information and feedback on activities in the
field. Our strategy is to strengthen our in-country presence by increasing our staff
numbers more than threefold by the end of 2011.

At the time of the RIG audit, the in-country staff consisted of one USAID DH staff (the
Country Program Coordinator), three institutional contractor staff, and protracted short-
term assistance from USAID/Washington GH Tech. (The USAID-financed USPSC
PEPFAR Coordinator coordinates PEPFAR activities of all USG agencies and does not
perform any USAID project management and oversight duties.) Since the audit, two
project managers have joined the USAID CI team, bringing the number of full-time


                                           52 

                                                                         Appendix II


project managers to four. Three of the four were fast-tracked for USAID AOTR /COTR
training in August and October 2010. The project managers’ annual work objectives
include making regular and frequent site visits to check on the work of implementing
partners and their sub-partners in the field.

As of November 2010, five additional recruitments are in various stages, with an
additional 9 positions planned to be filled by the end of CY2011. Based on experience
with recruiting for USAID/CI, the average timeline from position description development
and approval to recruitment and arrival at post is 12 months. In the meantime,
USAID/WA continues to provide critical support for all financial, programmatic,
contracting and technical matters pertaining to USAID/WA awards.

It should also be noted that at the end of CY2009, USAID initiated periodic partner
performance reviews (PPR) of all PEPFAR CI partners. Conducted jointly by USAID
and CDC, PEPFAR partners’ activities, results, and financial reports are thoroughly
reviewed and discussed with each partner twice a year. The PPR has turned out to be
an important and effective monitoring tool for USAID, CDC, and the implementing
partners.

Target Date: March 31, 2011. Action: USAID/WA and Abidjan.

Recommendation No. 18: We recommend that USAID/West Africa perform a data
quality assessment of the results/reported data of the program.

Management Response: USAID/West Africa agrees with this recommendation, but
notes that the auditors are incorrect when they say that there has never been a data
quality assessment of USAID activities. In 2009 PEPFAR CI’s Strategic Information
Branch initiated a data quality assessment (DQA) in which three USAID/WA Health
Team members participated. The results of the DQA were disseminated in a workshop
in Abidjan April 15-17, 2009, and again, all three members of the USAID/WA Health
Team participated. The documents validating the DQA as well as recommendations
made by participants were finalized and disseminated as part of the workshop.
Beginning January 2011, the MOH DIPE will begin conducting annual DQAs of all
HIV/AIDS sites, with assistance from MEASURE and CDC Atlanta. Furthermore, since
USAID has limited in-country staff in CI, CDC has taken the lead in data collection,
aggregation and analysis of all PEPFAR CI partners’ activities. This is a tremendous
task, given that between USAID and CDC, there are about 50 prime partners and nearly
300 sub-partners. Both Agencies have recognized the need to strengthen M&E and
improve data quality and both are currently recruiting M&E Advisors. One of the first
assignments the selected candidates will carry out will be to plan and implement a DQA
for select PEPFAR CI activities during CY2011.

Target Date: Sept. 30, 2011. Action: USAID/WA and Abidjan.

Recommendation No. 19: We recommend that USAID/West Africa, in collaboration
with the implementing partner on AIDSTAR II activities, finalize and approve its
monitoring and evaluation plan to include indicators and targets.

Management Response: The draft report is inaccurate in saying that no indicators
were established. Indicators were defined before April 2010. Preliminary indicators and
targets were established in PEPFAR COP 2009 and later incorporated into the


                                          53 

                                                                             Appendix II


AIDSTAR Task Order with Social Sectors Development Strategies (SSDS) for the
ERCACI Project (Ensemble pour le Renforcement des Capacités en Côte d’Ivoire).
Targets for the sub-partners were finalized in April 2010 when SSDS concluded sub-
grants with five NGO partners.

At this time, both indicators and targets have been established (see Annex 3). We
request that RIG/Dakar consider deleting this recommendation from the final
report.

Recommendation No. 20: We recommend that USAID/West Africa, in coordination with
the Centers for Disease Control and Prevention, establish and define roles and
responsibilities for its PEPFAR staff.

Management Response: USAID/West Africa agrees with this recommendation. As
cited in the audit report, one of the main challenges of the PEPFAR CI Program has
been the joint management of the program. Identified as a major issue by the PEPFAR
Team in Côte d’Ivoire, a retreat was held in February 2010 to review the program
workload, staffing needs and structure. And, progress has been made in this regard
since the retreat. The Inter-agency Organization Chart has been revised a few times
since the retreat, and USAID and CDC are working together to refine a common set of
operational procedures that respect the regulations of each implementing USG agency
without unnecessarily complicating or compromising the integrity of overall program
implementation.

We do take issue with the auditors’ opening remarks (Page 3, Para 4) in which they
characterize the organizational structure of PEPFAR CI as “vague.” The structure itself
is clear and logical (see Annex 4 for updated Inter-agency Organization Chart). The
challenge has been to effectively operationalize a management structure that comprises
staff from different agencies which have their own unique institutional mindsets and
practices.

Under the joint management arrangement, a three- person Executive Council oversees
and directs the work undertaken by seven operational units (called Branches). The
Branches include (i) Care and Treatment, (ii) Laboratory, (iii) Prevention, (iv) Project
Management, (v) Strategic Information, (vi) Systems Strengthening, and (vii) Operations.
USAID and CDC staff work together to implement the program. At times the joint
management and implementation effort seems to be a “strength” as both Agencies bring
their respective complementary experiences and competencies to bear on the program.
At other times, it seems to be a “weakness” when the team must confront and reconcile
two sets of rules, regulations, institutional mindsets and practices. The situation
becomes even more complicated, and sometimes frustrating, as directives from OGAC
and the Department of State have to be taken into account.

So, while the organizational structure itself is not vague, it is very different from the way
the USAID and CDC traditionally work in other countries. In CI there is one integrated
USG team. The team elaborated a Standard Operating Procedures Manual for PEPFAR
CI to help guide the project implementation process. The Manual is periodically updated
as necessary. A Memorandum of Understanding (MOU) has also been drafted to affirm
and clarify the parameters of the USAID–CDC joint management of PEPFAR CI. The
MOU will be further revised and circulated for clearance to both Agencies early in
CY2011.


                                            54 

                                                                           Appendix II



With regard to staff roles and responsibilities, progress has been made since the
February 2010 PEPFAR staff retreat. The addition of five project managers (two USAID,
three CDC) to the formerly three-person Project Management Branch has considerably
strengthened project management and oversight of all PEPFAR CI activities. Project
managers from both Agencies bring management skills, financial rigor and accountability
to program implementation. This has enabled PEPFAR technical advisors to focus on
what they do best, that is, advise on technical matters related to PEPFAR activities.

Following up on our commitment to strengthening project management and oversight for
PEPFAR CI activities, USAID/CI and WA staff, in consultation with the
USAID/Washington Human Resources Office and CDC PEPFAR colleagues, drafted a
SOW for a training needs assessment and development and implementation of a
training program for PEPFAR CI project managers and technical advisors. The SOW
was submitted to USAID/WA for review, approval and processing in July 2010. We
would like to get the TNA underway in early CY2011.

Target Date: March 30, 2011. Action: USAID/WA and Abidjan.

Recommendation No 21: We recommend that USAID/West Africa develop and
implement a plan to address participation of the two hospitals identified in the [URC HCI]
program.

Management Response:             The Health Care Improvement (HCI) Project is a
USAID/Washington Indefinite Quantity Contract (IQC) and is implemented by University
Research Co., LLC. (URC). The USAID/COTR and Contracting Officer are located in
Washington, D.C. We request that the recommendation be rephrased to correctly
identify the appropriate action office(s) in USAID/Washington.

Moreover, we have read and re-read the findings concerning URC’s work and regret that
the auditors’ discussion of URC’s work is faulty. The report misconstrues the nature and
scope of the Health Care Improvement Project (which, curiously enough, is never
mentioned by name anywhere in the audit report). The USAID/Washington COTR has
provided the following seven comments on the audit report and clarifications about HCI:

1. The report gives an inconsistent description of URC’s scope of work (SOW). The
summary on Page 2 states that URC was to “improve the quality of monitoring and
evaluation data.” This is simply wrong. On page 21, the report says that URC’s work
“involved carrying out a detailed assessment of ART services across the continuum of
care at all national ART sites.” This is also wrong. A baseline assessment was carried
out in preparation for the actual SOW which is to introduce a specific quality
improvement (QI) methodology to address areas of low performance identified by the
baseline (and other data sources). On the same page, the report describes URC's
work yet again, this time as providing "professional services and quality improvement
dedicated to helping clients use scientific methods and research findings to improve
program management and outcomes to achieve organizational and behavioral change."
This description obfuscates the real SOW underlined above.

The auditors assert that URC was to do this work "with the assistance of the
Government of Côte d' Ivoire." In fact, the SOW calls for precisely the reverse: URC
was to assist the GOCI to improve the quality of its own services. And finally, even the


                                           55 

                                                                                Appendix II


summary of the overall IQC's purpose is inaccurate (p. 21, para 1), listing health
financing, governance, and pharmaceutical management as focus areas for the project
when in fact they are not.

2. The SOW of URC is to support the implementation of a well-recognized QI
methodology, called the “improvement collaborative,” through the implementing
PEPFAR sub-partners identified by USAID, for 41 facilities, including the two hospitals
cited in the audit report. URC did in fact carry out this service for the entire group of
facilities, including the two hospitals visited by the auditors, by providing training in QI
methodologies and support for facility-level improvement teams composed of regular
providers. The activities carried out by these providers are voluntary, and variation in
effort is normal, as reported in the improvement literature.

Based on a misunderstanding of what URC/HCI was asked to do, the audit report
misinterprets its only major finding, that is, that two hospitals were indeed poor
performers at an early stage of the improvement collaborative. The audit report fails to
mention that the URC Country Director had advised USAID and the audit team of the
situation at the sites prior to the audit work -- indeed their known poor performance was
precisely the reason they were targeted by URC/HCI.

URC followed standard practice in the field -- as it has done in over 50 such
collaboratives over the past 10 years -- in reporting improvements in the average
performance of the whole group. Changes in performance are monitored in terms of
quantitative indicators of quality selected at the beginning of the collaborative, and the
number of reporting facilities is given for each indicator, since not all facilities address all
indicators, and it is common for some participating facilities to fail to report some
months. This is normal and expected for this methodology. For example, during FY 09,
the overall improvements for the facilities in the ART collaborative included:

   Filling out all key items in the ART medical record 13% at baseline, 85% by Sept. 09
    for PMTCT records, 8% to 87%
   ART patient lost to follow up: 28% to 7%
   Percentage of children born to an HIV + mother, tested for HIV: 15% to 79%

These impressive results reflect work carried out voluntarily by providers in the
participating facilities overall. The performance of individual facilities varies, but this in no
way indicates that URC did not "implement" its program of work. The report suggests
that low performance in the two hospitals raises doubt that URC conducted an
improvement collaborative for the 41 facilities. This conclusion reflects a basic
misunderstanding of what URC was asked to do, and ignores the detailed reports of the
QI teams.

3. The auditors’ suggestion that USAID can and should somehow force the hospitals to
carry out improvement activities runs counter to the entire experience in the field of
quality improvement. Indeed, following accepted practices, URC has already assessed
the causes of poor performance in the two hospitals, found that the hospital leaders
were away on travel during the key improvement training, and working through the
implementing PEPFAR sub-partner, have succeeded in raising the performance of both
hospitals. Not only were these efforts omitted from the audit report, the auditors imply
without any basis that URC was aware of the poor performance of the hospitals and did
nothing about it in order to do use the funds elsewhere.


                                              56 

                                                                                   Appendix II



4. The report also wrongly suggests that the URC budget was directly linked to the
number of facilities performing well (p.21). As discussed above, this perspective reflects
a misunderstanding of the methodology. URC indeed developed a collaborative for 41
facilities, and the performance of these facilities varied, as expected. Further, with no
change in overall funding, the number of participating facilities has already been
expanded to 120 sites.

5. The report concludes that it is important [emphasis added] to note that results
reported by the implementing partner are misleading [emphasis added] as "some
activities may not have taken place as reported." This kind of innuendo has no place in
a professional report, stating that the reports ARE misleading because the team
suspects activities MAY not have taken place. Further, as noted above, the team's
concept of what URC and the partners were implementing is erroneous--it is not the
results of their work that is referenced in the report, but those of the MOH facility teams.

6. On p.18 the report states that the "implementing partner" had not conducted site visits
since the start of the program in 2007. Since both URC and the PEPFAR implementing
sub-partners are resident in the country, and most certainly did conduct training and
facilitation visits leading to quantitative improvement reported by facility teams, and since
both organizations also demonstrated knowledge about the details of the facility teams
performance, this assertion flies in the face of the facts.

7. Finally, the draft summary observes that URC's program "reportedly [emphasis
added] improved the quality of data at the intended target of 41 medical health centers."
Not only does this statement get the objective wrong -- it is the quality of services, not
data that is the objective -- it insinuates that the actual improvements illustrated above
are false. There is simply no basis for this.

We request that RIG/Dakar consider deleting this recommendation from the final
report.

Recommendation No 22: We recommend that USAID/West Africa verify that activities
at the 35 sites not visited by the audit team are in fact active and that hospital
participation is apparent.

Management Response: The Health Care Improvement Project is a USAID/W
Indefinite Quantity Contract (IQC) and is implemented by University Research Co., LLC.
(URC). The USAID/COTR and Contracting Officer are located in Washington, D.C. We
request that the recommendation be rephrased to correctly identify the appropriate
action officer(s) in USAID/Washington.

USAID/CI staff are confident that activities at the 35 sites not visited by the auditors are in fact
active as reported by MOH and PEPFAR implementing partners. URC/HCI will continue to work
with the MOH and IPs to strengthen the quality of services, and monitoring and evaluation of all
sites. Progress in these areas has and will continue to be documented in URC’s quarterly and
other PEPFAR CI reports.

Target Date: March 31, 2011. Action: HCI COTR, with assistance from USAID
Abidjan.




                                                57 

U.S. Agency for International Development 

        Office of Inspector General 

       1300 Pennsylvania Ave., NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
